BJ

TOT

3fn tl)t Supreme Court of tlje

i r'

§a

%

States
supreme cowa^O-S"
filed

Brian J. Neary

SEP 2 2 2021

-Petitioner

OFFICE OFTHP n eou

V.

Jeff T.H. Pon

Respondent

U.S. Office of Personnel Management

Donald J. Trump, et al •5

Respondents

On Petition for a Writ of Certiorari to
United States Court of Appeals for the Second Circuit
Appeal No. 20-3584

Petition for Writ of Certiorari
Pro Se (in forma pauperis), filed upon behalf of himself
Brian J. Neary
2673 Fisher Lane
Bellmore, NY 11710
(516) 221-4316

Question(s) Presented
1.) Has the Executive Branch of the U.S. Federal government breached the
‘Separation of Powers’ Principle by issuing Presidential Executive Order #13562 ?
Thus, unlawfully legislating from the Oval Office, and, exceeding its delegated
administrative authority; in violation of Article I of the U.S. Constitution:
“All Legislative Powers herein granted shall be vested in a Congress of the United States”

Whereby, creation of the Schedule-D Federal Excepted Service Hiring Authority
has permanently established a fraudulent “Class-of-Disenfranchised-Persons”.
2.) Does the Schedule-D Federal Excepted Service Hiring Authority PATHWAYS
Recent Graduates Program employment advertising policy, managed by the
U.S. Office of Personnel Management, infringe upon 29 C.F.R. § 1625.4 (a)
of the U.S. EEOC employment standards, rules, and regulations?
3.) Does the Schedule-D Federal Excepted Service Hiring Authority PATHWAYS
Recent Graduates Program employment advertising policy, managed by the
U.S. Office of Personnel Management, violate 29 U.S.C. § 623 (e) of the ADEA?
“Printing or publication of notice or advertisement indicating Preference, Limitation, etc”

4.) Is the Schedule-D Federal Excepted Service Hiring Authority PATHWAYS
Recent Graduates Program recruitment & selection policy 2-year maximum
Educational Qualification Limitation prerequisite for employment furtively
infringing upon 29 U.S.C. § 623 (Section 4) A2 of the ADEA?
5.) Did the U.S. Office of Personnel Management deliberately violate federal
oversight delegation authority 5 U.S.C. § 1104 (Subsection b) [2, 3], when
Deputy Associate Director of Merit System Accountability and Compliance
Ana A. Mazzi explicitly ordered all Federal Agency Human Resources
Directors nationwide to exclude the Schedule-D PATHWAYS Programs from
a government-wide audit of the Federal Excepted Service Hiring Authorities
for effectiveness, compliance with federal law, government regulations, and the
Merit System Principles; 5 U.S.C. § 2301 (Subsection b) (1),(2)?
6.) Is the United States Court of Appeals for the Second Circuit Judicial mandate
of “Frivolity and Meritless . . . lacking an arguable basis in either fact or law”
issued upon my [442] employment civil complaint a cursory, vague, unexplained
and purely subjective ruling; by completely disregarding the double-standard
evident within the exemption of the Schedule-D national federal hiring policy?
7.) Was the U.S. District Court for the Eastern District of New York Order of
Dismissal citing the Plaintiffs “Failure to State a Claim” an erroneous Judicial
decision, as it pertains to my ‘Standing’ as an aggrieved federal job applicant ?

List of Parties and Related Cases
[✓] All parties appear in the caption of the case on the cover page.
1. The U.S. Office of Personnel Management
2. The Executive Branch, Office of the President of the United States, et al.

[ ] All parties do not appear in the caption of the case on the cover page.

A list of all parties to the proceeding in the court whose judgment is the subject
of this petition is as follows:

n

Table of Contents
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

16

CONCLUSION

35

CERTIFICATE OF SERVICE

C-l

CERTIFICATE OF COMPLIANCE

C-2

in

Index to Appendices
PAGE
Cited

Exhibit

A.

2nd Circuit Court of Appeals final mandate; Appeal #20-3584

B.

U.S. Eastern District of New York; Order-of-Dismissal

C.

Presidential Executive Order #13562 .............................

5

Document Number: 2010-33169
Document Citation: 75 FR 82583 Page: 82583-82589
https://www.federalregister.gov/documents/2010/12/30/2010-33169/recruiting-and-hiringstudents-and-recent-graduates
D.

6

OPM Recent Graduates Program Final Order..............
Document Citation: 77 FR 28193, Pages 28193-28223
Document Number: 2012-11068
https://www.federalregister.gov/documents/2012/05/ll/2012-11068/excepted-service-careerand-career-conditional-employment-and-pathways-programs

E.

EEO Office of Federal Operations; OPM Agency Final Order

F.

OPM Federal Pathways Programs Hiring Data...................

9
17

U.S. Office of Personnel Management
do: Donny Dirsty; OPM Office of Strategy and Innovation
G.

29 C.F.R. § 1625.4 (a); Final Rule.....................

21

Document Citation: 72 FR Page: 36873-36875
Document Number: E7-13051
https://www.federalregister.gov/documents/2007/07/06/E7-13051/coverage-under-the-agediscrimination-in-employment-act
H.

Rabin (et al) v. PwC; Final Order...........................................................
U.S. Northern District of California Case No. #3:16-cv-02276 JST

22

I.

Brian Neary- Comprehensive Remedy Calculation Table

33

Chronological List of OPM PATHWAYS Recent Graduates Program
Nation-wide federal employment announcements

IV

Table of Authorities
PAGE

CASES
Hipona v. Equal Employment Opportunity Commission
EEOC Request No. 05860421 (March 2, 1988)

9, 18

Rabin (et al) v. PwC........................................................................................
U.S. Northern District of California; Case No. 3:16-cv-02276 JST

22

https://www.pacermonitor.com/public/case/11310104/Rabin_et_al_v_PricewaterhouseCoopers_LLP

23

Neitzke v. Williams..................
SCOTUS 490 U.S. 319 (1989)
https://supreme.justia.com/cases/federal/us/490/319/
Livingston v. Adirondack Beverage Co..............................................................
U.S.Court of Appeals for the Second Circuit; Docket 96-9301 No.1091

25

https://law.justia.com/cases/federal/appellate-courts/F3/141/434/553813/
Ashcroft v. Iqba.................................................................
SCOTUS 556 U.S. 662; Docket no. 07-1015 (2009)

26

https://www.supremecourt.gov/search.aspx?filename=/docketfiles/07-1015.htm
Swierkiewicz v. Sorema N. A.........................................
SCOTUS 534 U.S. 506; Docket no. 00-1853 (2002)

26

https://www.supremecourt.gov/search.aspx?filename=/docketfiles/00- 1853.htm .
Johnson v. City of Shelby, Miss..................................
SCOTUS 574 U.S. 10; Docket no. 13-1318 (2014)

26

https://www.supremecourt.gov/search.aspx?filename=/docketfiles/13-1318.htm
Skinner v. Switzer..............................................................
SCOTUS 562 U.S. 521; Docket no. 09-9000 (2011)

26

https://www.supremecourt. gov/search. aspx?filename=/docketfiles/09-9000.htm
Thai v. Cayre Group, Ltd. et al............................................................................
U.S. Southern District of New York; Case no. l:10-cv-00269
https://www.pacermonitor.com/public/case/857223/Thai_v_Cayre_Group,_Ltd_et_al

v

26

Table of Authorities (continued)
PAGE

CASES
Tex. Dep’t of Housing and Community Affairs v. Inclusive Communities Project, Inc.
SCOTUS 576 U.S.
Docket no. 13-1371 (2015)

27

https://www.supremecourt.gov/search.aspx?filename=/docketfiles/13-1371.htm
Bell Atlantic Corp. v. Twombly.....................................
SCOTUS 550 U.S. 544; Docket no. 05-1126 (2007)

27

https://www.supremecourt.gov/se arch.aspx?filename=/docketfiles/05- 1126.htm
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights Commission................................ 28
j Docket no. 16-111(2018)
SCOTUS 584 U.S.
https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/html/public/16-lll.html
Little Sisters of the Poor Saints Peter and Paul Home v. Pennsylvania....................... 28
.; Docket no. 19-431 (2020)
SCOTUS 591 U.S.
https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/html/public/19-431.html
Mahanoy Area School District v. B. L.....................
Docket no. 20-255 (2021)
SCOTUS 594 U.S.

28

https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/html/public/20-255.html
Bradley et al v. T-Mobile US, Inc. et al............................................................ ;................
U.S. District Court, Northern Dist. of California; Case No. 5:17-cv-07232 BLF

30

https://www .pacermonitor.com/public/case/23292718/Bradley_et_al_v_TMobile_US,_Inc_et_al
Robert Heath v. Google LLC.................................................................................................
U.S. District Court, Northern Dist. of California; Case No. 5:15-cv-01824 BLF

30

https://www.pacermonitor.com/public/case/8077439/Robert_Heath_v_Google_LLC
National Fair Housing Alliance et al v. Facebook, Inc........................................................ 30
U.S. District Court, Southern District of NY; Case No. l:18-cv-02689 JGK
https://www.pacermonitor.com/public/case/24045944/National_Fair_Housing_Alliance_et_al_v_Facebook,_Inc

Moeller v. Equal Employment Opportunity Commission.............................
U.S. District Court, District of Columbia; Case No. l:19-cv-02330 DLF

32

https://www.pacermonitor.com/public/case/29426196/MOELLER__v_EQUAL_EMPLOYMENT_OPPO
RTUNITY.COMMISSION
Bernardo C. v. Tillerson; EEOC Appeal No. 0120160564 (Nov. 8, 2017)

vi

32

Statutes
PAGE

TITLE

7

The Pendleton Civil Service Reform Act..........................................
Ch. 27: 22 Statutes 403-4; (Sch. A) Excepted Service Authority
https://www.loc.gov/item/llsl-v22/

7

The Government Organization and Employees Act........................................
Public Law 89-554: 80 Statute 378; (Sch. B) Excepted Service Authority
https://www.govtrack.us/congress/bills/89/hrl0104/text

8, 20

Federal Merit System Principles; 5 U.S.C § 2301 (b)(1),(2)

https://uscode.house.gov/view.xhtml?req=granuleid%3AUSC-prelim-title5-chapter23&edition=prelim
(ADEA) 29 U.S.C. [Chapter 14] § Sec.623 (a)(1), (e)

11, 14

https://uscode. house. gov/view.xhtml?path=%2Fprelim%40title29%2Fchapterl4&edition=prelim
18

5 U.S.C. § 1104 (b)(2),(3)
https://uscode.house.gov/view.xhtml?req=granuleid:USC-prelim-title5sectionl 104&num=0&edition=prelim

18, 19

5 U.S.C. § 2301(b)(8)(A)

https://uscode.house.gov/view.xhtml?req=5%2BUSC%2B2301&amp;f=treesort&amp;amp;nuin=4&a
mp&amp;edition=prelim&amp
... 18, 19

5 U.S.C. § 2302(b)(6)
https://uscode.house. gov/view. xhtml?req=29&f=treesort&num=125

5 C.F.R. § 300.102 (a),(b),(c)......................................................................................................

19

https://www.ecfr.gov/current/title-5/chapter-I/subchapter-B/part-300/subpart-A/section-300.102
19

5 C.F.R. § 300.103 (b)(1)...........
https://ecfr.io/Title-5/Section-300.103

19

29 C.F.R. § 1625.4 (a)................
https://ecfr.io/Title-29/Section-1625.4

21

29 U.S.C. § 623 4(a)(2)
https://uscode.house.gov/view.xhtml?req=granuleid%3AUSC-prelim-title29chapterl4&edition=prelim

29 U.S.C. § 614.501(a)(2), (c)(1).................................................................................................. 33
https://www.ecfr.gov/current/title-29/subtitle-B/chapter-XIV/part-1614/subpart-E/section-1614.501

Vll

Rules and Regulations
PAGE

TITLE

5, {passim}

Executive Order #13562

https://www.federalregister.gOv/documents/2010/12/30/2010-33169/recruiting-and-hiring-studentsand-recent-graduates

Schedule-D Federal Excepted Service Hiring Authority

5, {passim}

https://www.federalregister.gov/documents/2012/05/ll/2012-11068/excepted-service-career-andcareer-conditional-employment-and-pathways-programs

14

Executive Order #13932; Section 2(a)

https://www.federalregister.gov/documents/2020/07/01/2020-14337/modernizing-and-reforming-theassessment-and-hiring-of-federal-job-candidates
EEOC Systemic Enforcement Taskforce Report

21

https://www.eeoc.gov/systemic-enforcement-eeoc
EEOC Remedies for Employment Discrimination
https://www.eeoc.gov/remedies-employment-discrimination

vm

33

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.

OPINIONS BELOW
[✓] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
[✓] reported at PACER CM/ECF system (ecf bounces@nved.uscourts.gov~): or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition and is
[✓] reported at PACER CM/ECF system (ecf bounces@nved.uscourts.gov'): or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the court
appears at Appendix to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

Jurisdiction
[✓] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July 13th. 2021.
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States
and a copy of the order
Court of Appeals on the following date:_
denying rehearing appears at Appendix .
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including (date) on (date) in Application No. A .

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was_____
A copy of that decision appears at Appendix .
[ ] A timely petition for rehearing was thereafter denied on the
and a copy of the order denying rehearing
following date:
appears at Appendix .
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including (date) on (date) in Application No. A .

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

Constitutional and Statutory Provisions Involved
Presidential Executive Order #13562 is in violation of the ‘Separation-of-Powers’
Principle of Article I, Section I of the United State Constitution:

“All Legislative Powers herein granted shall be vested in a Congress of the United States”

Ref. https://constitution.congress.gov/constitution/article-l/
The Executive Branch (i.e. the Office of the President), with the issuance of
Executive Order #13562, has exceeded its delegated authority by legislating from
the Oval Office. The administrative directive unilaterally instituted a segregating
exemption to the federal Competitive Service, while bypassing the U.S. Congress.
The creation of the Schedule-D Federal Excepted Service Hiring Authority is a
direct breach of 5 U.S.C. 2301(b) (1)(2) of the U.S. Federal Merit System Principles
29 U.S.C.§ Sec.623 (a)(1)(e) of the Age Discrimination in Employment Act of 1967
Title-V of the United States Code for federal civil service regulations, as well as the
U.S. EEOC Systemic Enforcement Regulation; 29 C.F.R. § 1625.4 (a).

3

Statement of the Case
The fundamental purpose of my civil complaint is meant to be a referendum on
“The Power of the Pen”
I, Brian Neary the Petitioner, am directly accusing the Executive Branch of
the United States Government of breaching the ‘Separation of Powers’ Principle
by unlawfully legislating from the Oval Office. With the issuance of Executive
Order #13562 and the consequent formation of the Schedule-D Federal Excepted
Service Hiring Authority, the Executive Office of the President has exceeded its
delegated legal authority, in violation of Article I, Sec. I of the U.S. Constitution:
"All legislative Powers herein granted shall be vested in a Congress of the United States”

Furthermore, I assert that I have been denied my Constitutional Right to receive
satisfactory ‘Due-Process’ in the matter of my [442] age-discrimination in federal
employment civil complaint. This determination is due to the lack of proper
consideration given to applicable federal rules & statutes which I have presented
before the lower courts. The erroneous and cursory judicial mandate of ‘Frivolity’
decreed upon my. grievance by the Second Circuit completely ignored the underlying
dispute of my Appeal, as well as the irrefutable facts at hand. Moreover, the lower
court failed to expound upon its interpretation of the SCOTUS precedent cited.
I am now compelled to bring my charge before the highest authority in the nation.
Consequently, I implore this esteemed judicial body to please review the appellate
court ruling, and render a fair, impartial Decision upon the overriding supremacy
of a Presidential Executive Order versus pre-existing Federal Law.
4

To begin, during the time-period from January 10th to August 13th of FY 2018
I was intentionally prohibited from submitting online applications for employment
to 33 federal job announcements. The job listings were advertised nationally, via
the USAJOBS web-based employment portal, and had contained a total of 172
separate vacancies.

The recruitment announcements were posted by numerous

federal agencies, and were located in various municipalities throughout the country.
All of the available positions were categorized as open-to-the-public, albeit with the
segregating & exclusionary caveat of the term “Recent Graduates”.

To be clear, the specified designation of Recent Graduates along with the
corresponding Schedule-D Federal Excepted Service Hiring Authority, were formed
by Presidential Executive Order #13562 on December 27th, 2010:
Accordingly, pursuant to my authority under 5 U.S.C. 3302(1), and in
order to achieve a workforce that represents all segments of society
as provided in 5 U.S.C. 2301(b)(1), I find that conditions of good
administration (specifically, the need to promote employment
opportunities for students and recent graduates in the Federal
workforce) make necessary an exception to the competitive hiring
rules for certain positions in the Federal civil service.
Ref. Federal Register; Vol. 75, No. 248 / Thursday December 30th, 2010 / Part VII pages 82585-82586

The Schedule-D Federal Excepted Service Hiring Authority has permanently
established an Education-based Qualification Limitation Requirement of 2 years
or less; outlined within the Federal Register Final Rules and Regulations. (Exhibit c>

5

The U.S. Office of Personnel Management was mandated by the Executive Order
to institute, coordinate, and manage three new programs: Interns, Recent Graduates
and Presidential Management Fellows; collectively known as the OPM Federal
PATHWAYS Programs. (Exhibit d>
Ref. Federal Register; / Vol. 77, No. 92 / Friday, May 11th, 2012 / Part III, pages 28194, 28196, 28202

Furthermore, the implementation of the hiring authority had resulted in a
corresponding employment category listed on the USAJOBS website. Wherein, the
exclusionary two-year maximum educational prerequisite was (and is) stated
front-and-center on every USAJOBS Recent Graduates national employment posting.
To date, every federal agency, except for the EEOC, and all branches of the U.S.
military are active participants in the Schedule-D recruitment & hiring program.

The Schedule-D Recent Gradates Program is a non-merit based degree specific
exemption. Whereby, qualifying recent college graduates simultaneously receive a
"free-pass" from the federal civil service Competitive Service candidate assessment
process, and, get access to exclusive job offers; despite the primary stipulations
contained within the latest federal civil service procedural guidelines which are
subject to legislation passed by Congress. These merit-based laws are meant
to ensure a fair and open competition for every federal candidate, recruitment from
all segments of society, and a scrupulous final-selection process determined on the
basis of the applicants’ competencies, knowledge, skills, and abilities.
Ref. https://www.dol.gov/general/jobs/understanding-the-federal-hiring-process

6

The following historical record outlines the Legislative progression of the four
contemporaneous Federal Excepted Service Hiring Authorities:
• Schedules A, B
The Pendleton Act was introduced in the Senate as S.133; by George H.
Pendleton (D-OH)
Passed the Senate on December 27, 1882 (39-5)
Passed the House on January 4, 1883 (155-46)
Signed into Law by President Chester A. Arthur on January 16th, 1883
Ref: http://www.loc.gov/law/help/statutes-at-large/47th-congress.php
• Schedule C
Formed within the Civil Service Commission Report of 1956
It was officially incorporated in H.R. 10104
Finalized and codified from passage of Title V- 89th Congress (1965-1966)
Signed by President Lyndon B. Johnson
Enacted on September 6th, 1966 as Public Law# 89-554
Ref: https://www.govtrack.us/congress/bills/89/hrl0104/text
• Schedule D
Formed from Executive Order #13562, a non-descript administrative action
No House or Senate sponsorship
No Committee due-diligence examination
No Congressional debate
No Legislative vote or bi-partisan passage of a Bill
Not officially signed into Law
and I can use that pen to sign
“ I’ve got a pen and I've got a phone
Executive Orders, and take executive actions & administrative actions.”
- President Barack H. Obama (January 14th, 2014)
In his own words- President Obama defiantly declared that issuing Executive
Orders would effectively give him the “Political Power” to circumvent both
Congress and the Courts.

7

With Mr. Obama’s quotation in mind, I reiterate the initial standpoint of my
complaint that the non-statutory Schedule-D Recent Graduates hiring exemption
formulated from Executive Order #13562 did not originate from a bicameral Bill
passed within the U.S. Legislative Branch, and, was not formally signed into Law
by the President. In truth, Congress had absolutely nothing to do with instituting
this Federal Excepted Service Authority. Totally insulated from any public scrutiny
and undeserving of “Protected-Class” status, the existence of the Recent Gradates
program is categorically due to an unwarranted administrative Executive-Action
emanating from within an obfuscated, altogether unaccountable bureaucracy.

The hiring exemption has never been Judicially-tested for Constitutionality.
Moreover, it has been completely shielded from examination for a potential breach
of U.S. Merit System Principles 5 U.S.C. § 2301(b), or, for any possible violations of
pre-existing federal workplace discrimination Law.

By default, we are all

involuntarily obligated to comply with the Fiat of its authoritarian pronouncement.
This unambiguous fact contradicts the origination of Schedules A, B & C which were
basic constructs of bi-partisan support, public debate, mutual consensus, and
ultimately were codified as Federal Law.

The Schedule-D exemption is clearly

establishing an UNREASONABLE BARRIER to employment for “older” workers.
Whereby, the primary offense is giving preferential treatment to younger job
candidates within the discriminatory policy guidelines.

8

After the groundless rejection of my candidacy for federal employment, and my
subsequent discernment of allegedly biased conduct being perpetrated by the
government, I filed an age-discrimination in recruitment & final selection complaint
against the Office of Personnel Management with the OPM (internal) EEO group.
In its agency final decision, the OPM EEO pronounced I “failed to state a claim”.
Dissatisfied with not being provided a thorough explanation as to the reasoning
behind this vague and unsubstantiated conclusion, I then filed an Appeal with the
U.S. EEOC Office of Federal Operations. The OFO has since affirmed the OPM
agency final decision stating that it was not the proper forum to challenge an
administrative Directive, as the EEOC has no jurisdiction or authority to adjudicate
a Presidential Executive Order; citing Hipona v. EEOC- March 2,1988. (Exhibit e>

Consequently, I filed a [442] employment discrimination civil complaint within
my local U.S. Federal District Court jurisdiction, claiming premeditated systemic
age-bias, with a “Declaration” of the following accusation outlined below.

I charged the U.S. Office of Personnel Management (inclusive of all participating
federal agencies) with deliberate prejudice in the recruitment & selection of federal
job candidates; in violation of the Age Discrimination in Employment Act of 1967.
The complaint of age-discrimination is the consequence of an exclusionary policy
implemented and managed by the OPM.

9

The OPM PATHWAYS Recent Graduates Program [targeting] policy has a
negative, Disparate Impact upon workers aged 40 and above. I was DENIED the
Right’ to submit applications for employment within multiple job announcements
for no other reason than an unfair, segregating procedural technicality meant to
disqualify “non-conforming” older candidates; despite being fully capable to perform
the required duties that were listed.

On its surface, this seemingly neutral rule treats everyone equally in form, but
has a disadvantageous effect on people of a “protected class” characteristic as
compared to others. Likewise, this policy was (and is) effective nationwide, having
been publicized on the USAJOBS website.

The less favorable treatment that I

experienced automatically eliminated me from consideration for federal employment
because candidate eligibility criteria is reserved exclusively for people who recently
have graduated from a qualifying educational institution or program a maximum of
2 years from the date of completion of an academic course of study.

The degree-based Schedule-D Authority is evidently in direct opposition to the
merit & skills-based Competitive Service policy standards. More importantly, the
co-existence of the Schedule-D exemption actually gives every participating federal
agency a relatively convenient and easily accessible tool to completely nullify the
national public-sector recruitment & hiring system. For example: any federal agency
having the deliberate intention to defy federal civil service employment regulations
can simply advertise respective job openings under the Recent Graduates category.
10

In essence Schedule-D negates the federal civil service Competitive Service
recruitment and hiring rules, as well as furtively undermines the very foundation of
the “Employment Fairness” Policy.

The framework of Recent Graduates provision constructed from the Schedule-D
hiring Authority appears to have been deliberately formulated to circumvent the
competitive hiring rules, in order to give preferential treatment to younger workers.
The administrative procedures being utilized by the OPM are deliberately targeting
the conscription of Millennial and Gen-Z, while simultaneously causing the
outright rejection of older job applicants. It is fomenting a permanent system of
Generational Hiring.

Whereby, the expedient "loop-hole" of an educational time

restriction stipulation prohibits non-conforming candidates from consideration
regardless of their particular qualifications or skill-set. Consequently, as the vast
majority of readily available and capable workers are several years out of school,
they will NEVER be permitted to submit an application for the consideration of
federal employment within these specially designated jobs.

The Schedule-D exemption is counterintuitive to the underlying principles of
other legitimate Equity, Diversity & Inclusion initiatives, as well as to the obligatory
federal Competitive Service guidelines.
It is De Facto Age-Discrimination.

11

For that reason, I charged the OPM (inclusive of all participating federal
agencies and the U.S. Military) with being mutually in violation of the ADEA;
29 U.S.C. [Chapter 14] § 623. (a) (1), and Sub-section (e):

(a)(1): I claim that I was deliberately PROHIBITED from submitting online
applications for employment to 33 nationally advertised federal job announcements
only because I didn’t meet the discriminatory, education-based 2 year maximum
time limit requirement unlawfully imposed by the policy. I was unemployed, and
more than 50 years old at the time of the advertisements. I had previously acquired
a Master’s Degree in 2009; which was my most recent educational accreditation.
I was automatically categorized as “ineligible” for consideration by the terms
and conditions of employment under Schedule-D policy. This was in spite of the fact
that I either fully satisfied or exceeded the minimum qualifications of experience
and education as outlined in all 33 of the respective federal agency job postings.

(e): The nationwide job advertisements unambiguously enforce a LIMITATION
by restricting the recruitment & selection for the Recent Graduates Program to
federal candidates graduating from a qualified educational institution or program
within a maximum 2 year time span. All prospective applicants who do not meet
this qualification are prohibited from proceeding forward within the consideration
process. A do-not-reply email is auto-generated from the usastaffingoffice@opm.gov
system notifying the applicant(s) of his/her pre-programmed ineligibility.

12

But, how can I truly communicate to the SCOTUS Review Panel the irrationality
and meritlessness of the Schedule-D Recent Graduates educational qualification
time-limitation without demonstrating it, in the simplest of terms?
So, for perspective, I will now depict an applicable “real-world” example:
A Class of 2020 Juris Doctor graduate of Abraham Lincoln Online University
Law School (whose virtual main campus is in the Glendale Galleria shopping
mall; Los Angeles, CA) applying for a PATHWAYS Recent Graduates job
advertised by the U.S. Department of Justice Civil Rights Division, Criminal
Section [USAJOBS Announcement #20-CRT-PATH-001; Ctrl #555395600] is
immediately GUARANTEED hiring preference over a 2017 Harvard Law
Summa Cum Laude graduate who is initially pre-screened by the USAJOBS
algorithm, and is then automatically classified by the Federal government as
“Ineligible” ... based upon education.
Ref: https://www.usajobs.gov/GetJob/ViewDetails/555395600
Ref: https://www.alu.edu/academics/school-of-law/
Paradoxically, the *Policy Section* of Executive Order #13562 explicitly states
that the competitive hiring process for the federal civil service is structured in a
manner that favors job applicants who have “significant” previous work experience
and therefore creates a barrier to recruiting less experienced [i.e. less qualified]
candidates. After all, why would federal agencies want to hire more accomplished
competent people in the first place??? Somehow, the U.S. government has managed
to render the “Meritocracy” of personal excellence & academic achievement, such as
the prestige of attaining an

Heague degree ... obsolete.
13

The Recent Graduates program is deliberately designed to benefit the only
stratum of people who are eligible for the preferential status; the vast majority of
who are in the mid-20’s to early-30’s age group. For the duration of the program
tens-of-thousands of older job applicants have been (and continue to be) passed-over
by the segregating USAJOBS algorithm. We are being deprived of receiving equal
consideration for employment, by the recruitment of younger job candidates; who in
many instances may have academically inferior educational credentials, and lack
any professional workplace proficiency. Undoubtedly, the contrived Schedule-D
“Class-of-Persons” has made it expedient for the federal government to indirectly
bypass Merit System Principles in order to give special treatment to these
privileged younger candidates. Likewise, it is demonstrably advantageous to utilize
this exclusionary loophole to evade the stringent ADEA Sec. 623.(e) “Preference”
regulations without having to expressly reject older individuals outright because of
their respective [protected class] age group.

Lastly, E.O. #13562 conflicts with Executive Order #13932; Section 2(a)
which directs all federal agencies to revise national job classification qualification
standards to prescribe minimum educational requirements for employment:
(i)

Only WHEN a minimum educational qualification is legally required to
perform the duties of the position in the State or locality where those duties are
to be performed

(ii) Only IF the candidate’s education directly reflects the competencies necessary
to satisfy that qualification and perform the duties of the position

14

Returning to the present moment, there are several factors to mention in having
impeded my [442] federal employment civil complaint from efficiently proceeding
thru the bureaucratic judicial process, primarily due to:
1.) Six extensions filed by the D.O.J., in order to delay answering my charge
2.) Two separate case files; #l-18-cv-08351 (SDNY), #2:19-cv-00916 (EDNY)
3.) Four DOJ lawyers; Dollinger (SDNY), Soloveichik, Knapp, Nelson (EDNY)
4.) Two federal government shut-downs
5.) Four Courts; SDNY, EDNY Islip, EDNY Brooklyn, and the 2nd Circuit
6.) Three Judges; Furman (SDNY), Bianco (EDNY Islip), and Brodie (Brooklyn)
7.) Six OPM Directors; Pon, Weichert, Cabaniss, Rigas, Weichert again, now Ahuja
8.) The forced lockdowns because of the COVID pandemic
9.) Two Motion documents I filed that were lost by the 2nd Circ. Clerk’s office
Aside from the numerous holdups to the progression of this case, pin-balling me
around the judicial system while hampering my ‘Right to Due-Process’, neither of
the lower courts have actually addressed the fundamental aspect of my complaint:
The U.S. federal government is perpetrating a duplicitous ‘Double-Standard’
by exploiting an illicit recruitment “loophole” under the guise of the Excepted
Service, in order to facilitate the hiring of younger individuals and evade
federal employment Law; which every other private-sector employer in the
nation must follow to the letter.
Now, I am facing an Order-of-Dismissal based entirely upon an unexplained
unsupported and procedural mandate of ‘Frivolity’. In point of fact, it is a generic
pronouncement, which invariably could have been affirmed at the very outset of this
arduous process; sparing me a mountain of time and effort.
15

Reasons for Granting the Petition
In regard to the 2nd Circuit Appellate Court Order-of-Dismissal, the Opinion
tersely states that my civil complaint lacks an arguable basis of ‘Fact or Law’.
However, I fervently disagree with this perfunctory and vague conclusion issued
from the bench. In support of my assertion, the following argument will outline
3 particular points of contention that I want to address concerning the erroneous
and inconsistent determination which was reached by the Appellate Judges.

I. APPELLANT FAILED TO STATE A CLAIM
As far as FACT of the Merit of my charge is concerned:
1.) Executive Order #13562 has created an illegitimate, deliberately manufactured
"Class-of-Disenfranchised-Persons" who do not have a physical, emotional, or
mental disability (as outlined in Schedule A), or possess any sort of discernible
impediment to seeking federal employment (Schedules B, C); thus meriting
preferential status or treatment.

The subsequent Schedule-D Excepted Service

Hiring Authority OPM Pathways Recent Graduates Program 2 year maximum
educational qualification Limitation has formally established a discriminatory
prerequisite which enables those privileged candidates to receive unfettered access
to exclusive federal job advertisements; along with an unjustifiable exemption from
the ADEA, the federal civil-service Competitive Service hiring regulations, as well
as the U.S. Federal Merit System Principles.

16

2.) I had personally applied to 33 job announcements (containing 172 vacancies).
However, I was deprived of the protected Right to receive ‘Equal Consideration’ for
federal employment when my credentials were rejected and my applications were
discarded. I had experienced Disparate Impact by being directly prohibited from
participating within the candidacy process, because of the segregating proviso
contained within this 2 year maximum educational qualification Limitation.
The basis of which clearly supersedes all ADEA recruitment & hiring regulations.

3.) The OPM FOIA selection records which I obtained, and entered onto the lower
court docket have verified that of the 141,555 Schedule-D federal candidates hired
into the OPM PATHWAYS programs nationwide, from inception to July 31st, 2020:
92% were UNDER the age of 40 I 98% were UNDER the age of 50

(Exhibit F)

4.) The U.S. Department of Education NCES age-demographic dispersion table
303.40-(April 2020) has certified, for the past 50 years, 85% of all postsecondary
students and recent graduates were UNDER the age of 35. FY 2021-29 enrollment
projections are also aligned. I challenge any demographic experts to disprove the
overwhelmingly compelling historical & predicted total degree-granting educational
enrollment age-dispersion data tables which are fundamental to my standpoint:
FY 1970-2018

83% of all Students & Recent Graduates

were UNDER age 35

FY 2019-2020

86% of all Students & Recent Graduates

are UNDER age 35

FY 2021-2029

85% of all Students & Recent Graduates will be UNDER age 35

Ref. https://nces.ed.gov/programs/digest/dl9/tables/dtl9_303.40.asp
17

5.)

The EEOC Office of Federal Operations final-decision stated that the

Commission does not have jurisdiction or the authority to adjudicate an Executive
Order (citing Hipona v. EEOC 1988); then issued me a formal "Right to Sue" letter.

6.) On March 25th, 2016: within an interagency memorandum that was distributed
nationally to all federal agency Human Resources Divisions, OPM Deputy Associate
Director of Merit System Accountability and Compliance Ana A. Mazzi deliberately
breached 5 U.S.C. § 1104 (Subsection b) [2, 3], when she blocked an investigation of
Schedule-D, instructing all federal HR Directors NOT to audit the three programs
for any violations of Law, EEO regulations, or Merit System Principles; during a
comprehensive review of the Excepted Service Authorities conducted in FY 2017.
Ref. https://chcoc.gov/content/upcoming-governmentwide-study-excepted-service-hiring-authorities

The U.S. Merit System Protection Board then published the following statement
within a Congressional report criticizing the apparent dereliction-of-duty
committed by Director Mazzi, while highlighting the deceptive actions of the OPM:
In light of concerns that have been expressed about Pathways, we
recommend that OPM reconsider its decision to exclude Pathways from
this study. Additionally, the expressed purpose of the study includes
assessing compliance with merit system principles and the law. There is a
merit system principle that opposes favoritism (5U.S.C. § 2301(b)(8)(A)), and
a PPP prohibiting the tailoring of the scope of competition to favor a
particular candidate (5 U.S.C. § 2302(b)(6)). Thus, we recommend that OPM
also consider including in its study competitive service authorities that
have restricted applicant pools.
U.S. MSPB report to Congress- Preventing Nepotism; (June 20th, 2016) page 44
Ref.
https://www.mspb.gov/MSPBSEARCH/viewdocs.aspx?docnumber=1315054&version=1320272&appli
cation=ACROBAT
18

According to the MSPB report, it is apparent Schedule-D infringes upon Title VSubpart A of the Federal Employment Practices; 5 C.F.R. § 300.102 (a),(b),(c).
This subpart is directed toward the implementation of a Federal recruitment policy
in which competitive employment practices:
(a) Be practical in character, and as far as possible, relate to matters that fairly
test the relative capacity & fitness of candidates for the jobs to be filled

(b) Result in recruitment and selection from among the best qualified candidates

(c) Be developed and used without discrimination on the basis of race, color,
religion, sex, national origin, age, disability, genetic information, marital
status, political affiliation, sexual orientation, or any other non-merit factors

Schedule-D has created an illegitimate “class of persons” who DO NOT have a
genuine disability or share in other similar barriers to employment. In doing so, the
exemption is showing obvious favoritism toward select individuals, breaching U.S.
Federal Merit System Principles; 5 U.S.C. § 2301 (b) (8) (A).

Moreover, according to the MSPB, the Schedule-D exemption is also violating a
prohibited personnel practice (PPP) which prohibits the tailoring of the scope of
competition to benefit a particular candidate(s); 5 U.S.C. § 2302 (b) (6).

And . . . the OPM is complicit in concealing that fact!

19

The Schedule-D Recent Graduates loophole is undeniably infringing upon the
Title V- Subpart A “Relevance Requirement”.

Whereby, a rational relationship

does not exist between the basic qualifications of the position(s) to be filled {i.e. the
duties, responsibilities knowledge, skills and abilities necessary to perform the job}
and the [targeting] employment practices repeatedly being used during the
recruitment & selection process of federal candidates; 5 C.F.R. § 300.103 (b) (1).

7.) In a FOIA request entered onto the lower court docket, I have verified that the
EEOC does not participate in the “Recent Graduates” program. For the duration
of the Schedule-D programs, the EEOC has hired ZERO recent graduates.
Ref. EEOC FOIA No. 820-2018-000315; August 24, 2018

Now, as far as LAW is concerned, there are clearly 5 items of legal precedence
validating my ‘Claim’ of premeditated systemic age-discrimination before the bench:

1.) The Civil Service Reform Act of 1978 verifies that federal job applicants have
'Standing', and can file a discrimination grievance against an agency or the military:
The U.S. Federal Merit System Principles 5 USC § 2301 (b)(1), (2)
1.)

Recruitment should be from qualified
endeavor to achieve a work force from
advancement should be determined
knowledge and skills, after fair and
receive equal opportunity.

2.)

All employees and applicants for employment should receive fair & equitable
treatment in all aspects of personnel management without regard to political
affiliation race, color religion, national origin, sex, marital status, age, or
handicapping condition, and with proper regard for their privacy and constitutional
rights.
20

individuals from appropriate sources in an
all segments of society, and selection and
solely on the basis of relative ability,
open competition which assures that all

2.) 29 C.F.R. § 1625.4 (a) which explicitly states:
Help wanted notices or job advertisements may not contain terms and
phrases that limit or deter the employment of older individuals
Notices or job advertisements that contain terms such as young, age 25
to 35 college studentyrecent college graduate [ boy, girl, or others of a
similar nature violate the Age Discrimination in Employment Act
Ref. Final Rule; Federal Register / Vol. 72, No. 129 / Friday, July 6, 2007 / page 36875 (Exhibit G)

3.) The newly released EEOC Office of General Counsel Systemic Enforcement
Guidelines certifying that job applicants are protected by, and can pursue a
Systemic Age-Discrimination Charge; specifically highlighting job advertisements
showing preference & using the term "Recent Graduates
Ref. EEO Systemic Guidelines: Section III, page 4

4.) The distinct competitive advantage provided from Schedule-D is not limited
only to external federal job applicants. Current federal employees are also entitled
to exploit the OPM PATHWAYS Recent Graduates hiring exemption in advancing
their respective careers, to the detriment of other similarly situated public-sector
workers; as referenced in ADEA 29 U.S.C. § 623 Prohibition of Age Discrimination.
Section 4 (a) 2 of the ADEA forbids an employer:
To limit, segregate, or classify his employees in any way which would deprive or
tend to deprive any individual of employment opportunities or otherwise
adversely affect his status as an employee because of such individual’s age
Ref. https://uscode.house.gov/view.xhtml?req=granuleid%3AUSC-prelim-title29chapterl4&edition=prelim

21

For instance, an existing federal employee who recently obtained a degree
and is seeking a promotion, submits an application to a higher-rated Recent Grads
position (e.g. she is currently a GS-7 grade for a GS-9 level job). That internal
employee is automatically guaranteed the non-merit based Schedule-D Excepted
Service Authority “privileged” status, and therefore derives a clear benefit over
all other non-conforming federal employees who are prohibited from applying to
these exclusive job offers.
It’s textbook Nepotism/Favoritism!

5.) Rabin (et al) v. PwC; U.S. N.D. of California Case No. #3:16-cv-02276 JST.
District Judge Jon S. Tigar’s precedential Order, declaring that job applicants can
bring Disparate Impact claims under the ADEA, is pivotal to my ‘Standing’.<ExhlbltH>

Coincidentally, I happened to be a class-member of the PwC age-bias complaint.
It is also noteworthy that the segregating and exclusionary conduct exhibited by
PricewaterhouseCoopers mirrors that of the OPM Recent Graduates Program.
Perhaps, instead of settling out-of-court, counsel for PwC should have relied upon
the concurrent federal practice as a viable defense against the charges; i.e. why?!?
should our client be held liable for a graduation date (time-limit) recruitment policy
when the U.S. government can do the exact same thing without penalty!

In consideration of the legal threshold for establishing my ‘Claim’, I believe my
position couldn’t be any more transparent, has Merit, and is based on Fact & LAW.
22

II. FRIVOLITY

So, now here’s the obvious problem . . . the appellate court chose to disregard
Hon. Judge Tigar’s Judicial Order which substantiated my allegation, and still
upheld its mandate; dismissing my Appeal based upon ‘Frivolity’.
What then, is the recourse/defense of my position?

First off, the Frivolity definition seems quite broad, and on its surface is rather
imprecise. Likewise, there was no detailed explanation provided to me by the court
as to its reasoning or applicability to my charge. Subsequently, I need to ascertain
the judicial interpretation, in order to accurately dispute the yet unstated premise
behind the Dismissal Order. The SCOTUS case cited by the 2nd Circuit Court
ruling is: Neitzke v. Williams- 490 U.S. 319, 325 (1989); see also 28 U.S.C.§1915 (e).

The SCOTUS Opinion deliberated whether Williams failed to state a claim upon
which relief could be granted under Federal Rule of Civil Procedure 12(b)(6).

Under Rule 12(b)(6) the “failure to state a claim” standard (originally designed to
streamline litigation by dispensing with needless discovery and fact finding), a court
may dismiss a claim based on a dispositive issue of law; without regard to whether
it is based on outlandish legal theory, or upon a close but ultimately unavailing one.

23

Whereas, under the §1915(d) “frivolousness” standard, which is intended to
discourage baseless lawsuits, a dismissal is proper only if the underlying legal
theory (as in Williams' 14th Amendment claim) or the factual contentions lack an
arguable basis. The considerable common ground between the two standards does
not mean that one invariably encompasses the other, since, where a complaint
raises an arguable question of law which the district court ultimately finds is
correctly resolved against the plaintiff, dismissal on Rule 12(b)(6) grounds is
appropriate, but dismissal on the basis of frivolousness is not.

This conclusion flows from the §1915(d) role of replicating the function of
screening out inarguable claims from arguably meritorious ones played out in the
realm of paid cases by financial considerations.

Moreover, it accords with the

understanding articulated in other areas of law that not all unsuccessful claims are
frivolous. It is also consonant with the goal of Congress in enacting the in forma
pauperis statute of assuring equality of consideration for all litigants.

To conflate these standards would deny impoverished plaintiffs the practical
protections of Rule 12(b)(6) -- notice of a pending motion to dismiss and an
opportunity to amend the complaint before the motion is ruled on -- which are not
provided when in forma pauperis complaints are dismissed sua sponte under
§1915(d). Pp. 490 U. S. 324-331.

24

With the Neitzke SCOTUS Opinion in mind, my central question to this Court is:
So . . . which is it ???

No comprehensive rationalization was provided to me by the 2nd Circuit Judicial
panel as to the relevance of either rule. More importantly, what actually constitutes
the common bench-mark for making such an ambiguous ruling?
Or, is it a purely arbitrary, subjective interpretation!

To put it another way, an action is “frivolous” under §1915(d) when either the
factual contentions are clearly baseless (such as when allegations are the product of
delusion or fantasy), or the claim is based on an indisputably meritless legal theory;
Livingston v. Adirondack Beverage Co., 141 F.3d 434, 437 (2nd Cir. 1998).
Courts have concluded that claims are frivolous, or in bad faith in several situations:
•

The plaintiff filed a claim based on false allegations

•

The plaintiff failed to allege facts sufficient to support their claim

•

The plaintiff filed claims under an inapplicable statute

•

The plaintiff knew facts that would defeat the claim at the time of filing

•

The plaintiff failed to adequately investigate the claims to support the action

However, my civil complaint has evidently constructed a valid, factual allegation
based upon officially documented & authenticated evidentiary data, filed under
applicable federal statutes and codes of federal regulations, and after performing an
“in-depth” precise examination of the underlying circumstances.
25

As to the Motion to Dismiss under Rule 12 (b) (6) for the Failure to State a Claim:
In general, “[t]o survive a motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim to relief that is plausible on its
face.”; Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).

Additionally, an employment discrimination complaint “must contain only a
short and plain statement of the claim showing that the pleader is entitled to
relief.”; Swierkiewicz v. Sorema N. A., 534 U.S. 506, 508 (2002).

The Supreme Court has declined to revisit Swierkiewicz and has applied its
standard as good law after Twombly and Iqbal; Johnson v. City of Shelby, Miss.,
135 S.Ct. 346, 347 (2014) (citing Swierkeiwicz for the assertion that “imposing a
‘heightened pleading standard in employment discrimination cases conflicts with
Federal Rule of Civil Procedure 8(a)(2)”’); Skinner v. Switzer, 562 U.S. 521, 530
(2011) (assessing “whether [plaintiffs] complaint was sufficient to cross the federal
court’s threshold” under Swierkeiwicz); see also Thai v. Cayre Group, Ltd., 726 F.
Supp .2d 323, 329 (SDNY 2010) (“Reconciling Swierkiewicz, Twombly, and Iqbal, a
complaint need not establish a prima-facie case of employment discrimination to
survive a motion to dismiss. However, ‘the claim must be facially plausible, and
must give fair notice to the defendants of the basis for the claim’.”)

26

Disparate Impact claims that primarily rely upon statistical evidence to prove
discrimination are subject to a higher standard. The plaintiff must “allege facts at
the pleading stage or produce statistical evidence demonstrating a causal
connection [to] make out a prima facie case of disparate impact” to survive
dismissal; Tex. Dep’t of Housing and Community Affairs v. Inclusive Communities
Project, Inc., 135 S.Ct. 2507, 2523 (2015).

Again, I believe that my complaint is a straightforward & plain statement which
is factually plausible, contains sufficient factual matter, and is facially plausible.
Wherein, the *Claim for Relief* estimate is based upon officially published EEOC
guidelines; Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007).

Therefore, devoid of being provided with a reasonable justification for Dismissal
by the appellate court, it leaves me at a distinct disadvantage to provide SCOTUS
with relevant precedent. Thus, it is preventing me from possibly utilizing the Law
to refute this determination. Whereby, I don’t exactly know what I am contesting?!?
It seems as if the bench was ultimately trying to re-define or deflect the crux of the
argument away from my focal complaint accusation. So, I am seeking clarification
from this judicial body in regard to the principal charge of the complaint that
Presidential Executive Order #13562 has instituted a baseless, exclusionary, and
meritless Federal Excepted Service Authority, while unilaterally bypassing the
Congressional Legislative Process; in violation of Article I of the Constitution,
Title-V, Merit System Principles, the ADEA... as well as numerous rules & statutes.

27

Ostensibly, the court deemed my case as frivolity (defined- “silliness or trifling”)
But, I strongly affirm that it is an act of altruism. Like so many other people of
my age demographic whom I’ve been tirelessly fighting for during the progression of
this complaint, I am still unemployed - ineligible for jobless benefits - and remain in
grave danger of losing my home due to economic hardship.
And, the COVID debacle isn’t making it any easier to survive.

Besides, what makes my Pro Se in-forma pauperis dispute any more or less
‘frivolous’ than some of the other notable civil complaints that the U.S. Supreme
Court has recently heard? Specifically:
a.) The Colorado baker Jack Philips who was being sued for refusing to bake a cake
for a same-sex marriage ceremony: 584 U.S.__ ; Docket No. 16-111

b.) The State of Pennsylvania, along with the U.S. Department of Justice, suing the
‘Little Sisters of the Poor’ Order of celibate Catholic nuns for not providing access to
birth-control in their health plan: 591 U.S.

; Docket No. 19-431 Vide 19-454

And now this latest example:
c.) A 14 year old girl sued for throwing a temper tantrum, after getting cut from her
High School cheerleading squad. In her anger, she gave the middle-finger to school
officials in a SnapchatTM picture posted on social-media, stating in the caption quote:
“f[u]ck cheerleading, f[u]ck softball, f[u]ck school, and f[u]ck everything”
594 U.S.__ ; Docket No. 20-255, Mahanoy Area School District v. Brandi Levy

28

Honestly, how are these SCOTUS cases any less frivolous than mine!

Or, is the calculated withholding of a Frivolity pronouncement by certain federal
District Court jurisdictions merely an exercise of Judicial-Populism based upon
political expediency . . . And, with respect to these three specific case file examples:
The deliberate imposition of a “woke” Cancel Culture socio-political agenda?!?

If the Supreme Court has decided to undertake such seemingly “trivial” matters
then why did the 2nd Circuit deride my position, in having exposed a segregating
preferential national federal recruitment and selection policy? Wherein, the hiring
data has verified Schedule-D to be disparately impacting countless unemployed
and proficient older job candidates, who may be in similar dire-straits to mine.

In fact, we’ll actually never know the true number of people who have been and
certainly continue to be, harmed by this exclusionary policy, because conveniently
the federal government does not keep or create records for (i.e. discards) all of the
job applications of non-selected candidates beyond a period of more than 1 year.
As a result, there is no paper-trail or digital footprint of my or anyone else’s rejected
applications available for the Court to review, which will either confirm or refute
my accusation. Thus, its absence seriously impedes the lawful obligation regarding
the 'Burden-of-Proof, as I am responsible for the production of the truth of facts.

29

As to Stare Decisis, because there is a deficiency of legal precedence regarding
age-discrimination in recruitment cases specifically related to preferential online
advertising & digital publication of job announcements equivalent to the USAJOBS
platform within the Federal archives, I have included three noteworthy private
sector class-action complaints for comparative review:
• 5:17-cv-07232 Bradley et al v. T-Mobile US, Inc. et al

Hon. Beth Labson Freeman

• 5:15-cv-01824 Heath v. GOOGLE Inc.

Hon. Beth Labson Freeman

• l:18-cv-02689 National Fair Housing Alliance et al v. Facebook Inc.

Hon. John G. Koeltl

The primary allegations contained within these separate and distinct complaints
mutually accuse the Defendants with deliberately using exclusionary policies, and
restrictive qualification requirements during the online publication recruitment
process, in detriment to older workers.

At issue in Bradley (and NFHA) are

algorithms utilized by numerous advertisers on the Facebook® platform which
screen out “non-conforming” applicants through the use of targeting specifications.

Consequently, in March 2019, Facebook® CEO Mark Zuckerberg decided to settle
out-of-court.

The resolution encompasses at least five lawsuits filed by groups

including HUD, the American Civil Liberties Union, the Communications Workers
of America, and the National Fair Housing Alliance in the Southern District of NY.
As part of the final agreement, Facebook® unilaterally consented to overhaul its
advertising system, and disable biased segmentation portal algorithm parameters.

30

The accord compels the corporation to withhold a wide array of detailed
demographic information of its user membership.

The key structural change

significantly limits advertisers’ exclusionary targeting options.

The modification

eliminates the ability to select specified audiences (for example- gender, age, race
sexual orientation, graduation date, and zip code). These various category tools
are used as “indicators” by the discriminating advertisers to pre-screen applicants
when they promote online job opportunities, housing, and finance/credit lending.
Advertisers are also barred from segregating any groups who are protected under
federal, state or local regulations. Lastly, Facebook® now requires companies to
certify their compliance with existing anti-discrimination laws, along with internal
“terms of use” anti-discrimination corporate policies.

In October 2018, Google® too settled out-of-court with Heath for an undisclosed
amount. The case file is sealed, and the final terms of agreement are unknown.

Analogously, the USAJOBS federal employment platform has launched digital
accounts with, and, actively markets Recent Graduates job openings on social media
software apps like Facebook®, Twitter®, YouTube®, Linkedin®, Instagram®
et cetera.

Moreover, these commonly publicized employment ads have been

deliberately using the illicit, preferential segmentation settings.

All of these

Big Tech sites are now implicated as being complicit in the biased behavior.

31

Any potential candidates who “click” on one of the various externally advertised
social-network links are subsequently redirected back to the USAJOBS website.
Whereupon, the [Who may apply] keyword box section of USAJOBS qualifications
and assessment instructions then enforce the exclusionary and segregating barriers
to inclusion within the applicant pool for federal employment.

Aside from these private-sector lawsuits, I do know of two other public-sector
complaints filed against the Recent Graduates recruitment policy:
• James W. Moeller v. EEOC; U.S. Dist. Court of D.C.; Docket #l:19-cv-2330 (DLF)
Moeller is challenging the usage of “terms or phrases” that limit or deter the
employment of older individuals within public-sector job advertisements.

• Bernardo C. v. Tillerson; EEOC Appeal No. 0120160564 (Nov. 8, 2017)

The Bernardo grievance had been filed with the EEOC Office of Federal Operations.
I have diligently attempted to obtain a copy of the proceeding, but it was never
made available for public access within their searchable digital archives.

32

III. REMEDY
As far as ‘Relief’ is concerned, the EEOC outlines restitution; 29 CFR § 1614.501:
Whenever discrimination is found, the goal of the law is to put the victim of
discrimination in the same position (or nearly the same) that he or she would have
been if the discrimination had never occurred. The types of relief will depend upon
the discriminatory action and the effect it had on the victim. For example, if
someone is not selected for a job or a promotion because of discrimination, the
remedy may include placement in the job and/or back pay and benefits the
person would have received.
The employer also will be required to stop any discriminatory practices and
take steps to prevent discrimination in the future.
A victim of discrimination also may be able to recover attorney's fees, expert witness
fees, and court costs.
In cases involving intentional age discrimination, or in cases involving intentional
sex-based wage discrimination under the Equal Pay Act, victims cannot recover either
compensatory or punitive damages, but may be entitled to "liquidated damages."
Liquidated damages may be awarded to punish an especially malicious or reckless
act of discrimination. The amount of liquidated damages that may be awarded is
equal to the amount of back pay awarded the victim.
Ref. https://www.eeoc.gov/remedies-employment-discrimination
Accordingly, in conformity with EEOC guidelines, I have demanded that the
federal government must immediately STOP the discriminatory Recent Graduates
recruitment & hiring policy; §1614.501(a)(2).
compensation

is

concerned,

within

my

As far as any potential financial

REMEDY

computation

spreadsheet

previously filed with the EDNY, I had outlined the potential damages: per job
announcement/vacancy §1614.501(c)(l), and including liquidated damages §1614.408.
The figures are tabulated from the open date of each job announcement up to and
including the present federal pay period. (Exhibit i)
To date, the totals are as follows:
S 6,395,247
$32,162,349
$12,790,494
$64,324,698

per the 33 individual job announcements I was prohibited from applying to
per the 172 vacancies contained within all of the job announcements
per the 33 individual job announcements (plus Liquidated Damages)
per the 172 vacancies contained in the announcements (plus Liquidated Damages)

33

Unreimbursed healthcare costs, and, unpaid benefits weren’t included in the
numbers. As per the existing federal regulations & guidelines on granting 1 Relief’
to an aggrieved applicant, I recorded the range of infractions in chronological order
while simply calculating any potential financial compensation based exclusively
upon the prescribed EEOC Remedy formula.
But, I now want to make something perfectly clear to this Court as it pertains
to ‘frivolity’ and my having purportedly *Failed to state a Claim* upon which Relief
could be granted under Federal Rule of Civil Procedure 12(b)(6):
I will forego ANY of the financial restitution remedies which were outlined in
my itemized spreadsheet calculations, and only request a total amount of $1 22 for
recompense, thus dispelling any doubt as to the sincerity of my motives.

34

Conclusion
Honorable SCOTUS Justices, I implore the Court to please remove me from the
equation and objectively scrutinize the Schedule-D Federal Excepted Service Hiring
Authority Recent Graduates program for what it really is- unmerited FAVORITISM.
In short, Schedule-D equals:
“Do not pass GO” for all non-conforming federal job applicants!

The heart of this legal dispute is first and foremost about “Checks-and-Balances”.
My complaint isn’t just about Schedule-D alone, but also, it concerns what other
potentially inequitable Presidential Executive Orders may be coming down the
Equity, Diversity & Inclusion pipeline next (i.e. Schedules. E, F, G . . . and so on).
Because there’s a whole lot of letters left in the alphabet! And, as I have plausibly
demonstrated within this Court Petition, the “People’s Voice” is being silenced by
Executive-Branch Legislative Action; in defiance of Article I of the Constitution.

Case-in-point, recently inaugurated President Joseph R. Biden Jr. had barely
gotten the seat warm in the Oval Office, and he has already officially signed-off
on 42 new Executive Orders; the most having been issued within the first 100 days
of a Presidency in more than 88 years, since FDR back in 1933.
Ref. https://www.npr.org/2021/04/27/988822340/bidens-lst-100-days-a-look-by-the-numbers

Therefore, I am taking a stand against unchecked authority!

35

Honorable SCOTUS Justices, I deferentially request the Court to conduct an
honest assessment of this petition, concerning my [442] age-discrimination in
federal employment civil complaint. The national implications far outweigh the
lower court’s marginalization of the charges, and, the wholesale disregard of my
personal conviction. As it is plainly summarized within the *rules and guidance*
section for the Court:
Nature of Supreme Court Review
It is important to note that review in this Court by means of a
writ of certiorari is not a matter of right, but of judicial
discretion. The primary concern of the Supreme Court is not to
correct errors in lower court decisions, but to decide cases
presenting issues of importance beyond the particular facts and
parties involved.

By my original declaration, the ultimate purpose of this grievance was meant to
be a referendum on the power of the pen. Accordingly, I truly believe my publicly
“Speaking-out” to be a moral imperative .... as well as my Civic Duty.

To quote SCOTUS Associate Justice Stephen G. Breyer:
"Sometimes it is necessary to protect the superfluous in order to preserve the necessary."

September 24th, 2021

Respectfully Submitted,
Brian J. Neary
Petitioner

36

signature.

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 8 of 19 PagelD #: 289

App’x 52, 53 (2d Cir. 2018) (citing Morrison, 547 F.3d at 170); Clayton v. United States, No.
18-CV-5867, 2020 WL 1545542, at *3 (E.D.N.Y. Mar. 31, 2020) (quoting Tandon, 752 F.3d at
243); Fed. Deposit Ins. Corp. v. BankofN.Y. Mellon, 369 F. Supp. 3d 547, 552 (S.D.N.Y. 2019)
(quoting Tandon, 752 F.3d at 243).
ii.

Rule 12(b)(6)

In reviewing a motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil
Procedure, a court must construe the complaint liberally, “accepting all factual allegations in the
complaint as true, and drawing all reasonable inferences in the plaintiffs favor.” Kim v. Kimm,
884 F.3d 98, 103 (2d Cir. 2018) (quoting Chambers v. Time Warner, Inc., 282 F.3d 147,152 (2d
Cir. 2002)); see also Tsirelman v. Daines, 794 F.3d 310, 313 (2d Cir. 2015) (quoting Jaghory v.
N.Y. State Dep’t of Educ., 131 F.3d 326, 329 (2d Cir. 1997)). A complaint must plead “enough
facts to state a claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007). A claim is plausible “when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged ”
Matson v. Bd. of Educ., 631 F.3d 57,63 (2d Cir. 2011) (quoting Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009)). Although all allegations contained in the complaint are assumed to be true, this
tenet is “inapplicable to legal conclusions.” Iqbal, 556 U.S. at 678.
In reviewing a pro se complaint, a court must be mindful that a plaintiff’s pleadings must
be held “to less stringent standards than formal pleadings drafted by lawyers.” Erickson v.
Pardus, 551 U.S. 89,94 (2007) (per curiam) (quoting Estelle v. Gamble, 429 U.S. 97, 106
(1976)); see also Harris v. Mills, 572 F.3d 66, 72 (2d Cir. 2009) (noting that after Twombly,
courts “remain obligated to construe a pro se complaint liberally”).

8
Exhibit B pg.8

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 9 of 19 PagelD #: 290

b.

The Court declines to strike Plaintiff’s sur-reply

Defendants move to strike Plaintiff’s sur-reply, “or, in the alternative, to direct the
government to any portion as to which the Court would like a response.” (Defs.’ Mot. to Strike
1.) Defendants argue that Plaintiff has “identified no basis for needing a sur-reply,” and that the
sur-reply impermissibly addresses Plaintiffs “concerns with declarations attached to, and
threshold legal arguments advanced in, the [Defendants’] opening papers, and should have been
made in [P]laintiff’s opposition to the [Defendants’] motion, not after the [Defendants] filed its
reply.” (Id. at 2.)
Plaintiff argues that the Court should strike Defendants’ objection because they waited
“more than [nine] days from [Plaintiff’s] submission to” move to strike. (Pl.’s Opp’n Letter 1.)
Plaintiff also asserts that the Court should allow his sur-reply because he has “been vigilant to ..
. meet or exceed” his filing deadlines. (Id.)
The general principle is that supplemental filings require leave of the court. See
Guadagni v. N.Y.C. Transit Auth., 387 F. App’x 124,126 (2d Cir. 2010) (“[T]here is no evidence
that [the plaintiff] moved the district court for leave to file a sur-reply.”); Ruggiero v. WarnerLambert Co., 424 F.3d 249, 252 (2d Cir. 2005) (finding that the plaintiff could have “sought to
file a responsive sur-reply” in district court); Bayway Ref. Co. v. Oxygenated Mktg. & Trading
A.G., 215 F.3d 219, 227 (2d Cir. 2000) (“[The defendant] did not move the district court for
leave to file a sur-reply to respond to [the plaintiff’s] evidence.”); Sevilla v. Perez, No. 15-CV3528, 2016 WL 5372792, at *2 n.5 (E.D.N.Y. Sept. 26, 2016) (“[The plaintiff] did not seek leave
to file the sur-reply and the court did not grant permission for the filing of a sur-reply; this
contravenes the general principle that supplemental filings require leave of the court.”); Endo
Pharm. Inc. v.Amneal Pharm., LLC, No. 12-CIV-8060,2016 WL 1732751, at *9 (S.D.N.Y. Apr.

9
Exhibit B pg.9

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 10 of 19 PagelD #: 291

29,2016) (striking a supplemental filing where the plaintiff “neither sought nor received
permission from the court to file a [sur-reply]”). District courts have discretion to decide
whether to strike or permit a litigant’s sur-reply. See Endo Pharm. Inc., 2016 WL 1732751, at
*9 (“It is beyond dispute that the decision to permit a litigant to submit a [sur-reply] is a matter
left to the court’s discretion” (citing Kapiti v. Kelly, No. 07-CV-3782, 2008 WL 754686, at *1
n.l (S.D.N.Y. Mar. 12,2008))); Kapiti, 2008 WL 754686, at *1 n.l (“[T]he decision to permit a
litigant to submit a [sur-reply] is a matter left to the Court’s discretion, since neither the Federal
Rules of Civil Procedure nor the Local Civil Rules of [the] court authorize litigants to file [surreplies].”).
While Plaintiff neither sought nor received permission from the Court to file a sur-reply
to Defendants’ motion to dismiss, Plaintiff is proceeding pro se and the Court construes his
supplemental filings liberally. Plaintiff’s sur-reply consists of some beneficial data to
corroborate Plaintiff’s substantive claims, rather than arguments regarding the subject matter
jurisdictional issues raised by Defendants in their motion. (See Pl.’s Opp’n Letter.) As
Defendants argue,
[Plaintiffs] sur-reply . . . fails to grapple with the threshold legal
arguments of absolute immunity, sovereign immunity, standing,
administrative exhaustion, and failure to state a claim addressed in
the opening brief; . . . [rather, it] sets forth a factual contention
without addressing its implications for the ‘injury in fact’ and
‘traceability’ prongs of standing that [Defendants] discuss[] at
length.
(Defs.’ Mot. to Strike 2.) Thus, Plaintiff’s sur-reply does not prejudice Defendants because it
“largely repeals] [arguments] [PJlaintiff previously interposed,” (id. at 3), and Defendants do
not argue otherwise.
Accordingly, the Court exercises its discretion and denies Defendants’ motion to strike

10
Exhibit B pg.10

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 11 of 19 PagelD #: 292

Plaintiff’s sur-reply.
c.

The Court lacks subject matter jurisdiction

Defendants argue that Plaintiff’s claims against President Trump must be dismissed
because “he enjoys absolute immunity in actions such as this one predicated on a President’s
official acts,” (Defs.’ Mot. 12), and, in the alternative, because President Trump has sovereign
immunity from this action, (id. at 14). Defendants also argue that Plaintiff’s claims against
Weichert must be dismissed because she has sovereign immunity and, in the alternative, because
Plaintiff lacks standing and failed to exhaust his administrative remedies. (Id. at 13,17.)
Plaintiff fails to address Defendants’ arguments regarding President Trump’s absolute
and sovereign immunity, Weichert’s sovereign immunity, and Defendants’ arguments that he
lacks standing to bring this suit." (See Pl.’s Opp’n.)
i.

President Trump enjoys absolute immunity

Defendants argue that even if “President Trump [is] culpable for failing to revoke his
predecessor’s allegedly discriminatory [Executive Order] — President Trump would still enjoy
absolute immunity from suit, as well as from liability.” (Defs.’ Mot. 13.) Defendants argue that
the Executive Order “is a quintessential^ non-ministerial official act, setting federalemployment policy government-wide and rendering a discretionary determination to mandate a
new excepted service.” (Id.)
Plaintiff argues that the Executive Order “exceeds the President’s [constitutional

[authority.” (Compl.20.)

11 Although Plaintiff does not respond to Defendants’ claim that he failed to exhaust
administrative remedies, (Defs.’ Mot. 21), Plaintiff asserts in the Complaint that he filed an age
discrimination complaint with OPM in March of 2018, which was dismissed for failure to make
a claim, (Compl. 8). The OPM’s final decision was affirmed by the EEOC. (Id. Ex A, at 22.)
11
Exhibit B pg.11

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 12 of 19 PagelD #: 293

“No one doubts that Article II guarantees the independence of the [executive [b]ranch.
As the head of that branch, the President ‘occupies a unique position in the constitutional
scheme.”’ Trump v. Vance, —, U.S. —, —, 140 S. Ct. 2412,2425-26 (2020) (quoting Nixon v.
Fitzgerald, 457 U.S. 731,749 (1982)). The President’s duties “come with protections that
safeguard [his] ability to perform his vital functions.” Id. These include “absolute
immunity from damages liability predicated on his official acts.” Nixon, 457 U.S. at 749. The
President has absolute immunity because “the prospect of ... liability could ‘distract a President
from his public duties, to the detriment of not only the President and his office but also the
[n]ation.’” Trump, 140 S. Ct. at 2426 (quoting Nixon, 457 U.S. at 753); see also Franklin v.
Massachusetts, 505 U.S. 788, 802 (1992) (noting that an injunction “against the President
himself’ as to apportioning representatives based on census data “is extraordinary, and should
have raised judicial eyebrows”). Courts define official acts using a “functional approach.”
Clinton v. Jones, 520 U.S. 681,694 (1997) (holding that a president did not have absolute
immunity from sexual harassment claims); see also Nixon, 457 U.S. at 757-78 (holding that a
former President was entitled to absolute immunity based on his official acts in reorganizing the
armed forces).
The Executive Order is an official act, which sets policy on how federal employees are
hired, and, as a result, the President enjoys absolute immunity from this suit. See Franklin, 505
U.S. at 827 (Scalia, J., concurring in part) (“As the plurality notes, [the Supreme Court]
emphatically disclaimed the authority to [enjoin President Johnson from enforcing the
Reconstruction Acts], stating that ‘this court has no jurisdiction of a bill to enjoin the President in
the performance of his official duties.”’ (quoting Mississippi v. Johnson, 71 U.S. (4 Wall.) 475,
501 (1867))).

12
Exhibit B pg.12

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 13 of 19 PagelD #: 294

Accordingly, the Court finds that President Trump has absolute immunity from this suit,
and dismisses Plaintiff’s claims against him.
ii.

President Trump enjoys sovereign immunity

Defendants argue that “[assuming arguendo that President Trump were not dismissed
[from the suit] owing to absolute immunity, sovereign immunity would still bar this ADEA
action against” him because “[t]he only proper defendant to such ADEA action is the head of the
subject federal agency.” (Defs.’ Mot. 14.)
“It is, of course, ‘axiomatic’ under the principle of sovereign immunity ‘that the United
States may not be sued without its consent and that the existence of consent is a prerequisite for
jurisdiction.’” Adeleke v. United States, 355 F.3d 144,150 (2d Cir. 2004) (quoting United States
v. Mitchell, 463 U.S. 206, 212 (1983)); see also Dep’t of the Army v. Blue Fox, Inc., 525 U.S.
255,260 (1999) (“Absent a waiver, sovereign immunity shields the [fjederal [government and
its agencies from suit.” (quoting FDIC v. Meyer, 510 U.S. 471,475 (1994))). Waivers of
sovereign immunity must be “unequivocally expressed” by statute. United States v. Nordic VilL,
Inc., 503 U.S. 30, 33 (1992) (quoting Irwin v. Dep’t of Veterans Affs., 498 U.S. 89,95 (1990));
see also United States v. White Mountain Apache Tribe, 537 U.S. 465,472 (2003) (“The terms of
consent to be sued may not be inferred, but must be ‘unequivocally expressed’” (quoting United
States v. Mitchell, 445 U.S. 535, 538 (1980))). Congress created a limited sovereign immunity
waiver in the ADEA, which authorizes age-based discrimination suits against federal employers
under certain circumstances. See 29 U.S.C. § 633a(a).12

12 The waiver in section 633a(a) covers:
All personnel actions affecting employees or applicants for
employment who are at least [forty] years of age (except personnel
actions with regard to aliens employed outside the limits of the
13
Exhibit B pg.13

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 14 of 19 PagelD #: 295

Although the ADEA does not specify who the proper defendant should be in an agebased discrimination suit against federal employers, courts have held that the proper defendant in
a federal employee’s ADEA suit is the head of the agency. See, e.g., Ellis v. U.S. Postal Serv.,
784 F.2d 835, 838 (7th Cir. 1986) (applying Title VII’s rule that “the only proper defendant is
the head of the agency” to the ADEA); Healy v. U.S. Postal Serv., 677 F. Supp. 1284, 1289
(E.D.N.Y. 1987) (“Since both [Title VII and the ADEA] should be construed consistently, this
court holds that the only proper party defendant in a suit against the Postal Service under the
ADEA is the Postmaster General of the United States”).
Plaintiff improperly named President Trump as a defendant in this suit. The only proper
defendant in this action is the head of the OPM, Weichert. See Rector v. DOJ, No. 14-CIV11883,2016 WL 7188135, at *1 n.l (S.D.N.Y. Nov. 22, 2016) (dismissing claims against the
Department of Justice and Director of Executive Office for Immigration Review because the
only proper defendant was the head of the agency being sued); Klestadt v. Duncan, No. 14-CV2831,2016 WL 816788, at *1 n.l (E.D.N.Y. Feb. 25, 2016) (collecting cases) (granting leave to
amend caption “because the proper defendant in [an] ... ADEA lawsuit is the ‘head of the
federal agency in which the alleged discriminatory actions occurred.’” (quoting Tulin v. U.S.

United States) in military departments as defined in section 102 of
title 5, in executive agencies as defined in section 105 of title 5
(including employees and applicants for employment who are paid
from nonappropriated funds), in the United States Postal Service and
the Postal Regulatory Commission, in those units in the government
of the District of Columbia having positions in the competitive
service, and in those units of the judicial branch of the [f]ederal
[government having positions in the competitive service, in the
Smithsonian Institution, and in the Government Publishing Office,
the Government Accountability Office, and the Library of Congress
shall be made free from any discrimination based on age.
29 U.S.C. § 633a(a).
14
Exhibit B pg.14

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 15 of 19 PagelD #: 296

Postal Serv., No. 06-CV-5067, 2008 WL 822126, at *4 (E.D.N.Y. Mar. 25,2008))); Elhanajy v.
Shinseki, No. 10-CV-3192,2012 WL 2122178, at *11 (E.D.N.Y. June 12, 2012) (collecting
cases) (substituting the original defendants, U.S. Department of Veterans Affairs and the New
York Harbor Healthcare System, with the Secretary of the Department of Veterans Affairs, as the
Secretary was the proper defendant in the lawsuit).
Accordingly, the Court dismisses Plaintiff’s claims against President Trump on this basis
also.13
fiiij tPfaintiff lacks standing!
Defendants argue that Plaintiff cannot bring this suit because Plaintiff lacks standing “to
assert an ADEA claim as to []his non-selection” and “also lacks standing to the extent that the
wrong allegedly accruing to OPM is its promulgation of the RGP regulations, as mandated by the
[Executive Order] that created the RGP hiring authority.” (Defs.’ Mot. 18.) In support,
Defendants argue, inter alia, that Plaintiff fails to show that his “injury will be redressed by a
favorable decision,” because Plaintiffs “failure to secure a variety of jobs, cannot by definition

13 With regard to jurisdiction over Weichert, Defendants argue that sovereign immunity
precludes the ADEA claim against her because immunity is limited to “personnel actions” by the
OPM, and the Executive Order is not personnel action but rather a mandatory promulgation of
executive regulations. (Defs.’ Mot. 16.) While the Court declines to address this issue because it
dismisses the claims on other grounds, the Court notes that
it is now well established that ‘ [r]eview of the legality of Presidential
action can ordinarily be obtained in a suit seeking to enjoin the
officers who attempt to enforce the President’s directive.’ Even if
the [director] were acting at the behest of the President, this ‘does
not leave the courts without power to review the legality [of the
action], for courts have power to compel subordinate executive
officials to disobey illegal Presidential commands.
Chamber of Comm, of U.S. v. Reich, 74 F.3d 1322, 1328 (D.C. Cir. 1996) (first and third
alterations in original) (first quoting Franklin v. Massachusetts, 505 U.S. 788, 815 (1992)
(Scalia, J., concurring in part and concurring in the judgment); and then quoting Soucie v. David,
448 F.2d 1067, 1072 n.12 (D.C. Cir. 1971)).
15
Exhibit B pg.15

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 16 of 19 PagelD #: 297

be redressed by prospectively enjoining the RGP. ”14 (Id. at 20-21 (citing Platsky v. Nat’l Sec.
Agency, 547 F. App’x 81,83 (2d Cir. 2013)).)
Plaintiff seeks to enjoin the RGP, requests monetary damages equal to the number of job
announcements he applied to, and seeks removal of the two-year education limitation from the
Pathways Program. (Compl. 12.)
‘“Standing to sue is a doctrine’ that ‘limits the category of litigants empowered to
maintain a lawsuit in federal court to seek redress for a legal wrong.’” Liberian Cmty. Ass’n of
Conn. v. Lamont, 970 F.3d 174,183-84 (2d Cir. 2020) (quoting Spokeo, Inc. v. Robins, --- U.S. 136 S. Ct. 1540,1547 (May 16,2016)). In order to show standing, a plaintiff must establish
three things: (1) an “injury in fact — an invasion of a legally protected interest which is . ..
concrete and particularized and actual or imminent, not conjectural or hypothetical,” (2) “a
causal connection between the injury and the conduct complained of,” and (3) redressability of
the injury “by a favorable decision.” Lujan v. Defs. of Wildlife, 504 U.S. 555,560-61 (1992);
see also Pincus v. Nat’l RP. Passenger Corp., 581 F. App’x 88, 89 (2d Cir. 2014) (citing City of
LA. v. Lyons, 461 U.S. 95,111 (1983)) (describing the three elements of standing); Cacchillo v.
Insmed, Inc., 638 F.3d 401,404 (2d Cir. 2011) (“[A] plaintiff must show the three familiar
elements of standing: injury in fact, causation, and redressability.” (citing Summers v. Earth
Island Inst., 555 U.S. 488 (2009))). “If plaintiffs lack Article III standing, a court has no subject
matter jurisdiction to hear their claim.” Mahon v. Ticor Title Ins. Co., 683 F.3d 59, 62 (2d Cir.
2012) (quoting Cent. States Se. & Sw. Areas.Health & Welfare Fund v. Merck-Medco Managed
Care, L.L.C., 433 F.3d 181, 198 (2d Cir.2005)).

14 Because, as explained below, Plaintiff fails to show redressability, the Court declines
to address the injury-in-fact and causal connection requirements.
16
Exhibit B pg.16

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 17 of 19 PagelD #: 298

The nature of a redressability inquiry “focuses ... on whether the injury that a plaintiff
alleges is likely to be redressed through the litigation.” Sprint Commc’ns Co. v. APCC Servs.,
Inc., 554 U.S. 269, 286-87 (2008). To satisfy the redressability requirement, a plaintiff must
establish that “it is likely and not merely speculative that the plaintiff’s injury will be remedied
by the relief [the] plaintiff seeks in bringing suit[] ” Id. at 273-74 (citing Lujan, 504 U.S. at
560-61); see also M.S. v. Brown, 902 F.3d 1076, 1083 (9th Cir. 2018) (“A plaintiff’s burden to
demonstrate redressability is relatively modest. [The plaintiff] need not demonstrate that there is
a guarantee that her injuries will be redressed by a favorable decision; rather, a plaintiff need
only show a substantial likelihood that the relief sought would redress the injury.” (alteration and
citations omitted)).
“Th[e] [Supreme] Court is reluctant to endorse standing theories that require guesswork
as to how independent decisionmakers will exercise their judgment.” Clapper v. Amnesty Infl
USA, 568 U.S. 398,413 (2013); see also Himber v. Intuit, Inc., No. 10-CV-2511,2012 WL
4442796, at *7 (E.D.N.Y. Sept. 25,2012) (holding that “[i]t is purely speculative whether the
denials of service specified in the complaint can be traced to [the] petitioners’ ‘encouragement’
or instead result from decisions made by the hospitals without regard to the tax implications” and
“whether the desired exercise of the court’s remedial powers in this suit would result in the
availability to respondents of such services” (quoting Simon v. E. Ky. Welfare Rts. Org., 426
U.S. 26,28 (1976))). There is no redressability where such depends on an independent actor
who retains “broad and legitimate discretion [that] the courts cannot presume either to control or
to predict.” ASARCO, Inc. v. Kadish, 490 U.S. 605, 615 (1989); see also Himber, 2012 WL
4442796, at *7 (“As the jurisprudence of the Supreme Court and Second Circuit has clearly
articulated, claims of harm based upon speculation regarding decisions by third parties is

17
Exhibit B pg.17

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 18 of 19 PagelD #: 299

insufficient to confer Article III standing.”).
Plaintiff fails to establish redressability. While enjoining the RGP may theoretically offer
Plaintiff increased employment opportunities, Plaintiffs inability to get jobs in the past allegedly
due to the RGP is “merely ‘speculative’” and cannot be redressed. Lujan, 504 U.S. at 561.
Plaintiff does not adequately suggest that he would have been hired if he applied for jobs via the
RGP. As Defendants argue, Plaintiff failed to apply to a similarly competitive OPM job that did
not have educational timing requirements. (Defs.’ Mot. 7.) In addition, Plaintiff cannot show
that he would be hired for the RGP jobs in the future even if he were eligible for them because
such decisions depend on the discretion of “independent decisionmakers.” Clapper, 568 U.S. at
413. The RGP operates as an entry-level hiring avenue, and as Plaintiff notes, he has adequate
“professional background [and] work experience,” (Compl. 18), and yet has had “rotten luck,”
(id. at 13), in the job market.15 Plaintiff therefore fails to show redressability.
Accordingly, because Plaintiff cannot satisfy redressability, he cannot satisfy all three
prongs necessary to adjudicate a claim in federal court. The Court therefore dismisses Plaintiff’s
claims for lack of standing.16

15 Given that the Court dismisses Plaintiffs claims for lack of subject matter jurisdiction,
the Court declines to address Plaintiffs substantive claims. Nevertheless, the Court reiterates the
Second Circuit’s conclusion that the “Supreme Court has not to date recognized disparate impact
claims under [29 U.S.C.] § 633a, which applies to federal employers.” Neary, 730 F. App’x at
11 n.3.
16 Defendants also moved to dismiss for failure to exhaust the administrative review and
appeals processes as required by the Administrative Procedure Act (the “APA”), 5 U.S.C. § 704.
(Defs.’ Mot. 3-4.) Because the Court dismisses Plaintiffs claims for lack of standing, the Court
declines to address this argument.
18
Exhibit B pg.18

Case 2:19-cv-00916-MKB-PK Document 64 Filed 09/25/20 Page 19 of 19 PagelD #: 300

III. Conclusion
For the foregoing reasons, the Court grants Defendants’ motion to dismiss and dismisses
the action.
Dated: September 25,2020
Brooklyn, New York
SO ORDERED:

s/ MKB
MARGO K. BRODIE
United States District Judge

19
Exhibit B pg.19

AUTKIMTtCATLD

^

[EXHIBIT C]

Tp<v^r

•s❖

^ UTTERA^
SCBIPTA

Thursday,
December 30, 2010

vP

v

Part VII

The President
Executive Order 13562—Recruiting and
Hiring Students and Recent Graduates

Exhibit C pg.1

82585
Federal Register

Presidential Documents

Vol. 75, No. 248
Thursday, December 30, 2010

Title 3—

Executive Order 13562 of December 27, 2010

The President

Recruiting and Hiring Students and Recent Graduates
By the authority vested in me as President by the Constitution and the
laws of the United States of America, including sections 3301 and 3302
of title 5, United States Code, it is hereby ordered as follows:
Section l. Policy. The Federal Government benefits from a diverse workforce
that includes students and recent graduates, who infuse the workplace with
their enthusiasm, talents, and unique perspectives. The existing competitive
hiring process for the Federal civil service, however, is structured in a
manner that, even at the entry level, favors job applicants who have signifi­
cant previous work experience. This structure, along with ffha complexify
EJfTna rules goveTnina.'adnTiss’iorrto the career_civi’l service. creates"a barrier^
ftp riecrL]itm^~ahd~Tiirihg~nstudents and recent graduates! It places the Federal
Government at a competitive disadvantage compared to private-sector em­
ployers when it comes to hiring qualified applicants for entry-level positions.
To compete effectively for students and recent graduates, the Federal Govern­
ment must improve its recruiting efforts; offer clear paths to Federal intern­
ships for students from high school through post-graduate school: ffhter cleafl
(nafhs to cjyLl~service careers tor recent graduates^ and provide meaningful
training, mentoring, and career-development opportunities. Further, exposing
students and recent graduates to Federal jobs through internships and similar
programs attracts them to careers in the Federal Government and enables
agency employers to evaluate them on the job to determine whether they
are likely to have successful careers in Government.
Accordingly, pursuant to my authority under 5 U.S.C. 3302(1), and in order
to achieve a workforce that represents all segments of society as provided
in 5 U.S.C. 2301(b)(1), I find that conditions of good administration (specifi­
cally, the need to promote employment opportunities for students and recent
graduates in the Federal workforce) imaxe necessary an exception to Ifiel
rcompet’iTivertnrme rules! for certain positions in the Federal civil service.
Sec. 2. Establishment. There are hereby established the Internship Program
and the Recent Graduates Program, which, along with the Presidential Man­
agement Fellows Program, as modified herein, shall collectively be known
as the Pathways Programs. I therefore direct the Director of the Office of
Personnel Management (OPM) to issue regulations implementing the Path­
ways Programs consistent with this order, including:
(a) a description of the positions that executive departments and agencies
(agencies) may fill through the Pathways Programs because conditions of
good administration necessitate excepting those positions from the competi­
tive hiring rules;
(b) rules governing whether, to what extent, and in what manner public
notice should be provided of job opportunities in the Pathways Programs;
(c) a description of career-development, training, and mentorship opportu­
nities for participants in the Pathways Programs;
(d) requirements that managers meaningfully assess the performance of
participants in the Pathways Programs to identify those who should be
considered for conversion to career civil service positions;
(e) a description of OPM oversight of agency use of the Pathways Programs
to ensure that (i) they serve as a supplement to, and not a substitute for,

Exhibit C pg.2

82586

Federal Register/Vol. 75, No. 248/Thursday, December 30, 2010/Presidential Documents
the competitive hiring process, and (ii) agencies are using the Pathways
Programs in a genuine effort to develop talent for careers in the civil service;
(f) a description of OPM plans to evaluate agencies’ effectiveness in recruit­
ing and retaining talent using the Pathways Programs and of the satisfaction
of Pathways Programs participants and their hiring managers; and
(g) standard naming conventions across agencies, so that students and
recent graduates can clearly understand and compare the career pathway
opportunities available to them in the Federal Government.
Sec. 3. Internship Program. The Internship Program shall provide students
in high schools, community colleges, 4-year colleges, trade schools, career
and technical education programs, and other qualifying educational institu­
tions and programs, as determined by OPM, with paid opportunities to
work in agencies and explore Federal careers while still in school. The
Internship Program would replace the existing Student Career Experience
Program, established pursuant to Executive Order 12015 of October 26,
1977. The following principles and policies shall govern the Internship
Program:
(a) Participants in the program shall be referred to as “Interns” and shall
be students enrolled, or accepted for enrollment, in qualifying educational
institutions and programs, as determined by OPM.
(b) Subject to any exceptions OPM may establish by regulation, agencies
shall provide Interns with meaningful developmental work and set clear
expectations regarding the work experience of the intern.
(c) Students employed by third-party internship providers but placed in
agencies may, to the extent permitted by OPM regulations, be treated as
participants in the Internship Program.
Sec. 4. Recent Graduates Program. The Recent Graduates Program shall
provide individuals who have recently graduated from qualifying educational
institutions or programs with developmental experiences in the Federal Gov­
ernment intended to promote possible careers in the civil service. The fol­
lowing principles and policies shall govern the Recent Graduates Program:
(a) Participants in the program shall be referred to as “Recent Graduates”
and must have obtained a qualifying degree, or completed a qualifying
career or technical education program, as determined by OPM, within the
preceding 2 years, except that veterans who, due to their military service
obligation, were precluded from participating in the Recent Graduates Pro­
gram during the 2-year period after obtaining a qualifying degree or com­
pleting a qualifying program shall be eligible to participate in the Program
within 6 years of obtaining a qualifying degree or completing a qualifying
program.
(b) Responsibilities assigned to a Recent Graduate shall be consistent
with his or her qualifications, educational background, and career interests,
the purpose of the Recent Graduates Program, and agency needs.
Sec. 5. Presidential Management Fellows Program. The Presidential Manage­
ment Fellows (PMF) Program is an existing program established pursuant
to Executive Order 13318 of November 21, 2003, that aims to attract to
the Federal service outstanding men and women from a variety of academic
disciplines at the graduate level who have a clear interest in, and commitment
to, the leadership and management of public policies and programs. The
following requirements shall govern the PMF Program upon the revocation
of Executive Order 13318, as provided in section 8 of this order:
(a) Participants in this program shall continue to be known as Presidential
Management Fellows (PMFs or Fellows) and must have received, within
the preceding 2 years, a qualifying advanced degree, as determined by OPM.
(b) Responsibilities assigned to a PMF shall be consistent with the PMF’s
qualifications, educational background, and career interests, the purposes
of the PMF Program, and agency needs.

Exhibit C pg.3

Federal Register/Vol. 75, No. 248/Thursday, December 30, 2010/Presidential Documents

82587

(c) OPM shall establish the eligibility requirements and minimum qualifica­
tions for the program, as well as a process for assessing eligible individuals
for consideration for appointment as PMFs.
Sec. 6. Appointment and Conversion, (a) Appointments to any of the Path­
ways Programs shall be under Schedule D of the excepted service, as estab­
lished by section 7 of this order.
(b) Appointments to the Recent Graduates or PMF Programs shall not
exceed 2 years, unless extended by the employing agency for up to 120
days thereafter.
(c) Appointment to a Pathways Program shall confer no right to further
Federal employment in either the competitive or excepted service upon
the expiration of the appointment, except that agencies may convert eligible
participants noncompetitively to term, career, or career conditional appoint­
ments after satisfying requirements to be established by OPM, and agencies
may noncompetitively convert participants who were initially converted
to a term appointment under this section to a career or career-conditional
appointment before the term appointment expires.
5 CFR PART 6
■ PART 6—[AMENDED]

Sec. 7. Implementation, (a) Civil Service Rule VI is amended as follows:
(i) 5 CFR 6.1(a) is amended to read:
OPM may except positions from the competitive service when it deter­
mines that (A) appointments thereto through competitive examination
are not practicable, or (B) recruitment from among students attending
qualifying educational institutions or individuals who have recently com­
pleted qualifying educational programs can better be achieved by devising
additional means for recruiting and assessing candidates that diverge
from the processes generally applicable to the competitive service. These
positions shall be listed in OPM’s annual report for the fiscal year in
which the exceptions are made.
(ii) 5 CFR 6.2 is amended to read:
OPM shall list positions that it excepts from the competitive service
in Schedules A, B, C, and D, which schedules shall constitute parts
of this rule, as follows:
Schedule A. Positions other than those of a confidential or policy­
determining character for which it is not practicable to examine shall
be listed in Schedule A.
Schedule B. Positions other than those of a confidential or policydetermining character for which it is not practicable to hold a com­
petitive examination shall be listed in Schedule B. Appointments to
these positions shall be subject to such noncompetitive examination
as maay be prescribed by OPM.
Sche dule
i
C. Positions of a confidential or policy-determining character
shall be listed in Schedule C.
Schedule D. Positions other than those of a confidential or policydetermining character for which the competitive service requirements
make impracticable the adequate recruitment of sufficient numbers of
students attending qualifying educational institutions or individuals
who have recently completed qualifying educational programs. These
positions, which are temporarily placed in the excepted service to en­
able more effective recruitment from all segments of society by using
means of recruiting and assessing candidates that diverge from the
rules generally applicable to the competitive service, shall be listed
in Schedule D.
(iii) The first sentence of 5 CFR 6.4 is amended to read:
Except as may be required by statute, the Civil Service Rules and Regula­
tions shall not apply to removals from positions listed in Schedules A,
C, or D or from positions excepted from the competitive service by statute.
The second sentence of 5 CFR 6.4 is to remain unchanged.
(iv) The first sentence of 5 CFR 6.6 is amended to read:

Exhibit C pg.4

82588

Federal Register/Vol. 75, No. 248/Thursday, December 30, 2010/Presidential Documents
OPM may remove any position from or may revoke in whole or in
part any provision of Schedule A, B, C, or D.
The second sentence of 5 CFR 6.6 is to remain unchanged.
(b) The Director of OPM shall:
(i) promulgate such regulations as the Director determines may be necessary
to implement this order;
(ii) provide oversight of the Pathways Programs;
(iii) establish, if appropriate, a Government-wide cap on the number of
noncompetitive conversions to the competitive service of Interns, Recent
Graduates, or PMFs (or a Government-wide combined conversion cap appli­
cable to all three categories together);
(iv) administer, and review and revise annually or as needed, any Govern­
ment-wide cap established pursuant to this subsection;
(v) provide guidance on conducting an orderly transition from existing
student and internship programs to the Pathways Programs established
pursuant to this order; and
(vi) consider for publication in the Federal Register at an appropriate
time a proposed rule seeking public comment on the elimination of the
Student Temporary Employment Program, established through OPM regula­
tions at 5 CFR 213.3202(a).
(c) In accordance with regulations prescribed pursuant to this order and
applicable law, agencies shall:
(i) use appropriate merit-based procedures for recruitment, assessment,
placement, and ongoing career development for participants in the Path­
ways Programs;
(ii) provide for equal employment opportunity in the Pathways Programs
without regard to race, ethnicity, color, religion, sex, national origin, age,
disability, sexual orientation, or any other non-merit-based factor;
(iii) apply veterans’ preference criteria; and
(iv) within 45 days of the date of this order, designate a Pathways Programs
Officer (at the agency level, or at bureaus or components within the
agency) to administer Pathways Programs, to serve as liaison with OPM,
and to report to OPM on the implementation of the Pathways Programs
and the individuals hired under them.
Sec. 8. Prior Executive Orders, (a) Effective March 1, 2011, Executive Order
13162 (Federal Career Intern Program) is superseded and revoked. Any indi­
viduals serving in appointments under that order on March 1, 2011, shall
be converted to the competitive service, effective on that date, with no
loss of pay or benefits.
(b) On the effective date of final regulations promulgated by the Director
of OPM to implement the Internship Program, Executive Order 12015 (pursu­
ant to which the Student Career Experience Program was established), as
amended, is superseded and revoked.
(c) On the effective date of final regulations promulgated by the Director
of OPM to implement changes to the PMF Program required by this order,
Executive Order 13318 (Presidential Management Fellows Program), as
amended, is superseded and revoked.
Sec. 9. General Provisions, (a) This order shall be implemented consistent
with applicable law and subject to the availability of appropriations.
(b) Nothing in this order shall be construed to impair or otherwise affect:
(i) authority granted by law, regulation, Executive Order, or Presidential
Directive to an executive department, agency, or head thereof; or
(ii) functions of the Director of the Office of Management and Budget
relating to budgetary, administrative, or legislative proposals.
(c) This order is not intended to, and does not, create any right or benefit,
substantive or procedural, enforceable at law or in equity by any party

Exhibit C pg.5

Federal Register/Vol. 75, No. 248/Thursday, December 30, 2010/Presidential Documents

82589

against the United States, its departments, agencies, or entities, its officers,
employees, or agents, or any other person.

THE WHITE HOUSE,
December 27, 2010.
[FR Doc. 2010-33169
Filed 12-29-10; 11:15 am]
Billing code 3195-Wl-P

Exhibit C pg.6

*

«*1*NMCNT —

[Exhibit D]
.S

IITTEKA

^rpiora

FEDERAL REGISTER
Vol. 77

Friday,

No. 92

May 11, 2012

Part III
Office of Personnel Management
5 CFR Parts 213, 302, 315 et at.
Excepted Service, Career and Career-Conditional Employment; and
Pathways Programs; Final Rules

Exhibit D pg.1

28194

Federal Register/Vol. 77, No. 92/Friday, May 11, 2012/Rules and Regulations

three streamlined developmental
programs: the Internship Program for
students; the Recent Graduates Program
5 CFR Parts 213, 302, 315, 330, 334,
for people who have completed a
362, 531,536, 537, 550, 575, and 890
qualifying educational program within
the preceding 2 years; and the
RIN 3206-AM34
Presidential Management Fellows (PMF)
Program for people who obtained a
Excepted Service, Career and Careergraduate or professional degree within
Conditional Employment; and
the preceding 2 years. To implement
Pathways Programs
this Executive Order, OPM issued
AGENCY: U.S. Office of Personnel
proposed regulations for parts 213, 302,
Management.
315, 330, 334, 362, 531, 536, 537, 550,
575, and 890 of title 5, Code of Federal
ACTION: Final rule.
Regulations (5 CFR) on August 5, 2011.
SUMMARY: The Office of Personnel
As explained in the proposed
Management (OPM) is issuing final
regulations, the President is authorized
regulations implementing the Pathways by statute to provide for "necessary
Programs established by E.O. 13562,
exceptions of positions from the
signed December 27, 2010. As directed
competitive service” whenever
by the President, the Pathways Programs warranted by “conditions of good
provide clear paths to Federal
administration.,Tf5"t3IS!CT330'Z3rnfl
internships and potential careers in
(g-xecuuve.Qrdei\l3562, th<£ Frg^fjeaH
Government for students and recent
(tdundTKafrconditions of good!
graduates. The Pathways Programs
(administration '(specifically, the nggg
consist of the Internship Program, the
fpromotCem'Ptoyment Opportunities'foS
Recent Graduates Program and the
(studehts'and recent graduates iu_lhd)
Presidential Management Fellows
(Fed§Eal.workforce) make,nedes^arv qn»
Program. tPosiTFong")jj the Hatnwa,vJD
Exception to the.competitivehiring!
(rules fdrxertain positions. In theLFHfleralt
ff'jQgrarng ar$ exceptgdjibrn ttjil
EQmpeUUvCserviggrPartici'par^F'iia
fcivlL'service,Il'j.erithosd:tQ~bofilledl
(through th&PMhways Programs. [Execl
AJ
ftp"271
fireWlv createtLSchedute’D^rtKgl
iS'XCRntftH 'service!
<2Q'10H>
OPM’s regulations implement the
DATES: This final rule is effective July
10, 2012. Agencies, however, shall have President’s order by establishing the
framework for each of the three discrete
a 6-month transition period following
excepted
service internship programs
the effective date of the final rule to
for students and recent graduates:
convert to the Internship Program any
• The Internship Program is for
students serving under appointments
current
students. It consolidates two
made pursuant to the Student
existing internship programs into a
Educational Employment Program and
single program designed to provide high
to transition to the new Presidential
school, vocational and technical,
Management Fellows Program any
undergraduate, graduate, and
Fellows currently serving under
professional students, opportunities to
appointments made pursuant to the
be
exposed to the work of Government
existing Presidential Management
through
Federal internships. It is largely
Fellows Program. In addition, during
modeled after the existing Student
the transition period, agencies are
Career Experience Program (SCEP).
permitted to make appointments under
• The Recent Graduates Program is a
the Internship and Presidential
new program that will provide
Management Fellows Programs even if
developmental opportunities in Federal
they have not entered into a final
jobs for individuals who have recently
Memorandum of Understanding (MOU) graduated from qualifying educational
with OPM, as required by 5 CFR
institutions or programs.
362.104. This transition period does not
• The Presidential Management
apply to the Recent Graduates Program, Fellows (PMF) Program has been the
and appointments under the Recent
Federal Government’s premier
Graduate Program may not be made
leadership development program for
until an MOU is in place.
graduate and professional degree
FOR FURTHER INFORMATION CONTACT: Gale candidates for over three decades.
Perryman, 202-606-1143, Fax: 202Executive Order 13562 preserves the
606-4430 by TTY: 202-418-2532, or
PMF Program while making it more
email: gaIe.perryman@opm.gov.
flexible by, for example, expanding the
SUPPLEMENTARY INFORMATION: In
eligibility window for applicants to
Executive Order 13562, dated December include those who have received a
27, 2010, President Obama established
qualifying graduate degree within the
preceding 2 years.
the Pathways Programs, consisting of
OFFICE OF PERSONNEL
MANAGEMENT

Exhibit D pg.2

The appointing authorities for each
Pathways Program are contained in
Schedule D of the excepted service, a
new schedule created by section 7 of
Executive Order 13562. The President
created this new schedule pursuant to
his statutory authority to make
necessary exceptions to the competitive
hiring rules when warranted by
conditions of good administration. His
findings to support the exception are set
forth in section 1 of the Executive
Order. Under the new Schedule D
authority, agencies will be able, under
OPM’s guidance, direction, and
oversight, to use excepted service hiring
to fill positions from among a particular
class of eligible individuals—students
and recent graduates. This approach is
consistent with long-standing civil
service practice under excepted service
hiring authorities, including, for
example, Schedule A hiring for people
with disabilities.
Part 362 of title 5, Code of Federal
Regulations (CFR) contains the
regulatory requirements for each
Pathways Program. Part 362 consists of
four subparts. Subpart A contains only
those requirements common to all
Pathways Programs. Program-specific
requirements are set forth in subpart B
for the Internship Program, subpart C for
the Recent Graduates Program, and
subpart D for the PMF Program.
Summary of Comments
OPM received 238 written
submissions with comments on the
proposed Pathways Programs. A
member of Congress, 24 Federal
agencies, 8 labor unions representing
Federal employees, 74 individual
Federal employees, 20 colleges and
universities, 11 professional
organizations and student unions, 56
current students and recent graduates
and 44 other members of the public
submitted comments.
OPM did not address comments that
are outside the scope of the regulations.
One agency wanted to know how
current hiring and pay freezes would
affect hiring under the Pathways
Programs. Some students and recent
graduates submitted resumes for
employment consideration under the
Pathways Programs. Some submissions
detailed personal job search
experiences. A few were addressed to
agency specific programs not related to
Pathways. We did not respond to these
submissions in this final regulation.
The majority of the comments
expressed support for the creation of the
Pathways Programs. Multiple
commenters emphasized that the
Programs are necessary for recruiting
and hiring students and recent

28196

Federal Register/Vol. 77, No. 92/Friday, May 11, 2012/Rules and Regulations

This commenter also contends that
the best indicator of success on the job
is experience, and that it would be
“perplexing” for the Federal
Government to “seek out” and “prefer”
inexperienced applicants over those
with experience. These Programs are not
motivated by any desire to prefer one
type of worker over another. As
discussed, agencies should use the
Pathways Programs as part of an overall
workforce planning strategy to ensure
that their workforce is diverse and
drawn from all segments of society.
Another union suggested that the
introduction of “category rating” into
the competitive service selection
process, combined with other
improvements to the competitive hiring
process, may have eliminated barriers to
entry for inexperienced workers. The
union contends that this change has not
been in place long enough to evaluate
its impact on students and recent
graduates. The union is correct that
category rating allows a hiring official to
select from a larger list of best qualified
candidates than the so-called “rule of
3.” But category rating does not address
the advantage held by experienced
workers in the competitive examining
process. In order to be considered, an
individual must make the top quality
category that the agency established by
performing well in the competitive
examining process. Students and recent
graduates have not fared well in the
examining process because of their lack
of work experience. Though we think
the move to category rating is a good
one for competitive examining overall,
we disagree that it addresses the specific
needs that the Pathways Programs are
narrowly drawn to address.
This union also suggested that a better
solution to the problem with recruiting
and hiring students and recent
graduates is to reform the competitive
hiring process itself. This initiative is
not inconsistent with improving the
competitive hiring process. Rather, it is
an efficient, targeted approach to
address specific, identified problems
with the current approach to entry-level
hiring in the Federal Government.
A union commented that any program
that focuses on students and recent
graduates is demoralizing to temporary
employees working at the Forest Service
and other land management agencies.
The Pathways Programs are not
intended to demoralize any other
segment of the Federal workforce.
Rather, they are intended to provide for
a limited exception to the competitive
hiring rules to address a specific
concern about the Federal Government’s
ability to interest students and recent
graduates in Federal careers and to

successfully recruit, hire, and retain
them.
2. Schedule D
Multiple comments addressed the
new Schedule D, which was created by
section 7 of Executive Order 13562 and
is the appointing authority for each of
the Pathways Programs.
One union criticized the new
Schedule D hiring authority as overly
broad. The President created Schedule
D pursuant to his statutory authority to
make necessary exceptions to the
regular competitive hiring rules when
warranted by conditions of good
administration. It is based upon his
determination that the need to promote
employment opportunities for students
and recent graduates in the Federal
workforce makes necessary an exception
to the competitive rules. OPM’s
regulations simply implement the
President’s mandate.
The union also disputes that students
and recent graduates constitute a
“class” or a “class of persons” eligible
for appointment pursuant to Schedule
D. Schedule D was created by the
Executive order, which provides that
Schedule D shall include “[p]ositions
other than those of a confidential or
policy determining character for which
the competitive service requirements
make impracticable the adequate
recruitment of sufficient numbers of
students attending qualifying
educational institutions or individuals
who have recently completed qualifying
educational programs.” Section 2 of the
Executive order directs OPM to issue
regulations, including “a description of
the positions that executive departments
and agencies may fill through the
Pathways Programs.” The regulations
provide for agencies to submit to OPM
the positions they seek to fill through
the Pathways Programs, and OPM can
approve or disapprove of the use of the
Programs for those positions through the
MOU process. Because the President
established Schedule D and the class of
individuals covered by it through the
Executive order, any comments
challenging that determination are
beyond the scope of these implementing
regulations.
One union commented that Pathways
Participants may have available to them
training and mentoring opportunities
that are not available to other agency
employees. The union is correct that
agencies may implement the Programs
in this manner, but it is in keeping with
the nature of the Program to provide
Pathways Participants with training and
mentoring opportunities. These types of
programs are designed to leverage the
cognitive abilities of students and recent

Exhibit D pg.3

graduates through training, mentorship,
and development. The current version
of the Presidential Management Fellows
Program and the Veterans’ Recruitment
Appointment authority are examples
where program participants receive
training and development opportunities
that may differ from those offered to
individuals hired through the
competitive process or through any
other hiring authorities.
3. Position Identification
The proposed regulations contain
provisions governing how to identify
positions that may be filled through the
Pathways Programs. One union
commented that the regulations
improperly delegate to agencies and
their components the authority to
exempt positions from the competitive
service. We disagree. Agencies are
required to report to OPM on the types
of positions they seek to fill through the
Pathways Programs; they are required to
have an Memorandum of Understanding
(MOU) in place with OPM in order to
use the Pathways Programs; and OPM
will decide whether or not to approve
the types of positions agencies are
filling through the Programs through the
MOU renewal process.
4. Definitions
The proposed regulations contained a
number of definitions. Some
commenters requested clarifications to
some of the definitions. As discussed
below, we have modified some language
in the definitions to address these
concerns,
Some comments suggested that the
definition of “qualifying educational
institution” should not include a
homeschool curriculum. We think it
should. States generally recognize
homeschooling as an adequate
educational alternative, and we believe
it is appropriate to defer to the states on
this issue. Moreover, the requirements
and standards for homeschooling vary
widely from state to state or even within
a particular state. OPM, therefore,
declines to adopt one commenter’s
suggestion that there should be a
specific Government-wide definition of
homeschooling for purposes of these
regulations. Rather, agencies will be
responsible for determining the
eligibility of a homeschooled student
applicant.
One union commented that, with
respect to the Recent Graduates
Program, the definition of “qualifying
educational institution” does not
indicate whether high school degrees
would qualify an individual for a Recent
Graduate appointment. While the
proposed regulation did not include

28202

Federal Register/Vol. 77, No. 92/Friday, May 11, 2012/Rules and Regulations

Pathways Programs are fair to veterans,
These include requiring that
information about Pathways
opportunities be posted; specifying that
veterans’ preference rules apply to the
Pathways Programs; and allowing
certain veterans up to 6 years from the
time of graduation (rather than the
standard 2 years) to participate in the
Recent Graduates Program. As discussed
here, OPM has also included several
significant oversight mechanisms in the
regulations to ensure that agencies are
properly using them as a supplement to
competitive hiring, rather than a
substitute for it,
One agency commented that it
supported veterans’ preference but did
not believe that application of the
preference should disadvantage current
students or recent graduates. One
agency wanted to know how veterans’
preference would apply. Agencies are
required to follow part 302 procedures
(which includes the application of
veterans’ preference) when making any
Pathways appointment, even if to do so
disadvantages current students or recent
graduates.
One agency wanted to know how the
application of veterans’ preference
would affect the consideration of
priority reemployment candidates under
the Pathways Programs. The Pathways
Programs do not change the
requirements. Agencies must follow the
order of consideration in part 302 when
filling jobs under the Pathways
Programs.
One agency suggested that OPM
revisit the application of veterans’
preference under the Pathways
Programs because the agency believes
OPM combined competitive and
excepted service procedures for
veterans’ preference. The same agency
also expressed concern that providing
veterans’ preference under Pathways
gives the perception that veterans have
an overall advantage and wanted to
know how agencies would apply
veterans’ preference, The Veterans’
Preference Act of 1944, as amended,
applies to positions in the excepted
service. OPM does not have the
discretion to except Pathways from this
statutory requirement, nor would it
agree with an exception as a matter of
policy. Further, many veterans may be
availing themselves of the GI Bill to
complete an education. They deserve to
have their preference applied should
they seek a Federal job via Pathways.
Part 302 contains the regulatory
requirements and procedures for the
application of veterans’ preference in
the excepted service.
One agency wanted to eliminate from
consideration preference eligibles that

do not submit proper documentation.
OPM will not adopt this suggestion.
Agencies are required to exercise due
diligence in affording veterans’
preference to eligible applicants and to
establish policy and procedures that
follow existing regulations, This same
agency suggested that OPM add a
requirement to the final rule stating
agencies are not required to accept late
applications from veterans’ preference
eligibles. We did not adopt this
suggestion because it is not necessary,
The requirement to accept late
applications from 10-point preference
eligible veterans as provided in
§ 332.311 does not apply to filling
positions in the excepted service.

m%maDgEfirnffiafloa
.w,
LVQ]

,e union’s
concerns are misplaced. First, we
emphasize that the intention of these
regulations is to provide agencies with
options to employ as part of an overall
recruiting and hiring strategy that will
result in a workforce drawn from all
segments of society, including
employees of all ages. Second, the
Pathways Programs themselves are open
to all students and recent graduates,
regardless of age. Eligible students and
recent graduates will include older
individuals who left the workforce and
returned to school to prepare
themselves for new careers, as well as
those who obtained degrees while they
took time off from their careers to raise
a family. Older veterans who use the
new GI Bill to further their education
after completing their military service
are also eligible to participate in the
Pathways Programs.
In short, the Pathways Programs were
not intended to discriminate based on
age, nor should they have that effect. To
the extent that an individual believes
that an agency is misusing the Programs
in order to discriminate against older
applicants, he or she may pursue
available legal remedies to address such
misuse.
mi

12. Miscellaneous
The provisions for temporary
assignment under the Intergovernmental
Personnel Act (IPA) in § 332.102 contain
a definition of “employee.” PMFs
SCEPs, FCIPs and VRAs are included in
the definition of employee as examples
of excepted service employees eligible
under the IPA. OPM removed these
excepted service examples contained in
332.102 in the proposed regulations
because most of them will become
obsolete with the publication of the

Exhibit D pg.4

final Pathways rule. One agency
suggested that OPM should replace the
examples with the new Pathways
Programs rather than deleting the
explanatory language altogether. We are
not adopting this suggestion because we
believe the definition is adequate
without examples.
One agency suggested OPM create a
special Program identifier code to track
Pathways Participants. OPM does not
believe such a code is necessary at this
time. Each Pathways Program has its
own unique appointing authority that
can be used to hack Participants and
Program usage. We will evaluate over
time whether this approach is adequate,
One agency asked whether the
Pathways Programs will be centrally
funded from a source separate from the
agency’s approved appropriation. The
Pathways Programs are not centrally
funded. Agencies must fund their own
Pathways Programs.
One agency recommended that OPM
establish a Pathways alumni group to
help with recruitment and mentoring.
We will consider this idea. In the
meantime, we note that agencies are free
to establish these groups themselves.
Several agencies asked OPM to clarify
whether the Administrative Careers
with America (ACWA) testing is
required when filling positions under
the Recent Graduates Program and
whether OPM will be developing
assessment criteria for positions filled
through the Recent Graduates Program.
ACWA testing is not specifically
required. Rather, agencies must use a
valid and job-related assessment for all
positions (including those formerly
covered by ACWA). Agencies can
choose to use the OPM assessment or
other valid assessments.
Responses to Comments on the
Regulations
1. Excepted Service (Part 213)
One agency suggested that OPM
amend the final rule by placing the
regulatory requirements for the
administration of the Pathways
Programs in part 213 rather than part
362 because it believes it is confusing to
have the requirements for the
administration of the Pathways
Programs in part 362. We did not adopt
this suggestion because we believe it is
clearer to maintain the specific Program
requirements of the Pathways Programs
separate from the broad regulatory
requirements for the use of excepted
schedules that are contained in part 213.
Additionally, the current regulatory
requirements for use of the PMF
Program are contained in part 362, and
we decided that it would be best to have

[ EXHIBIT E]
U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
Office of Federal Operations
P.O. Box 77960
Washington, DC 20013
Brian J. Neary, a7k/a
Keith L, i
Complainant,
v.
Jeff T. H. Pon,
Director,
Office of Personnel Management,
Agency,
Appeal No. 0120181475
Agency No. 2017029
DECISION
On March 28, 2018, Complainant filed a timely appeal with the Equal Employment Opportunity
Commission (EEOC or Commission) from a final Agency decision (FAD) dated March 7, 2018,
dismissing his complaint of unlawful employment discrimination in violation of the Age
Discrimination in Employment Act of 1967 (ADEA), as amended, 29 U.S.C. § 621 et seq.
BACKGROUND
At the time of events giving rise to this complaint, the Federal Deposit Insurance Corporation
(FD1C), via announcement 2Q17-HQB-RG0029, sought applicants for the position of Financial
Institution Specialist, CG-0570A-7. Under die terms of the announcement, which was pursuant
to FDIC’s “Pathways'* hiring authority, applicants must have graduated within the last two years,
or graduate by December 31, 2017, from a qualifying educational institution. Complainant
graduated in 2009 (Master’s Degree). As such, Complainant was ineligible to apply for the
position.
On July 14, 2017, Complainant filed a formal complaint with Office of Personnel Management
(OPM) alleging that it discriminated against him based on his age (49) when it promulgated the
Pathways program which he contends has a disparate impact on potential applicants over the age
of 40. He notes that OPM promulgated the regulations (5 C.F.R. § 362.302(a) and (b)(1) & (2))
governing the Pathways program, which implement Executive Order 13562 (December 27,
1 This case has been randomly assigned a pseudonym which will replace Complainant’s name
when the decision is published to non-parties und the Commission’s website.

Exhibit E pg.1

2

0120181475

2010). He alleges this allows the FDIC and all participating federal Agencies in Pathways to use
educational time limitations to deliberately exclude older workers from recruitment.2
Executive Order 13562 (Dec. 27T 2010) established the Recent Graduates Program, part of
Pathways Programs. Section 4(a) of the Executive Order requires that participants in the Recent
Graduates Program... “must have obtained a qualifying degree, or completed a qualifying career
or technical education program, as determined by OPM, within the preceding 2 years, except...”
certain veterans.
OPM Regulation 5 C.F.R. § 362.302(a) and (b)(1) & (2) implements Executive Order 13562. It:
defines candidate eligibility under Pathways Recent Graduates Program, including the
educational requirements and the two-year rule as defined by the Executive Order.
The Agency dismissed the complaint for failure to state a claim, ft reasoned that Complainant’s
complaint is about the legality of Pathways. (It reasoned that the Agency and the Commission
floif t have jurisdiction over, the legality, of & programjereated by Exec urive Order. Jn_suppnri
Ibis,, it cited jjjpona Y. .Equal. -F.mptavme.in.QppnnniniLy^Cni-tuni^
! That case concerned,Executive Order 11935 (September 2, 1976),
which prohibited appointing anyone to the competitive service unless the person was a citizen or
national of the United States, with exceptions. After being denied reinstatement because he was
not a United Slates citizen, the complainant filed an EEO complaint and contended, among other
things, that the Executive Order conflicted with Title VII of the Civil Rights Act of 1964, which
prohibits discrimination based on national origin. The Commission ruled that the complainant’s
argument that the Executive Order was invalid failed to state a claim that can be adjudicated in
the administrative EEO complaint process. The Commission noted that the complainant did not
allege disparate treatment in the adherence by the agency to the Executive Order or in applying
for exceptions under the Executive Order, and under these circumstances his complaint failed to
state a claim.
The instant appeal followed. On appeal, Complainant reiterates his claims.5 The Agency argues
that the FAD should be affirmed.
ANALYSIS AND FINDINGS
Complainant’s claim is that Executive Order 13562, which establishes as a hiring authority the
Pathways Recent Graduate Program for candidates who obtained a qualifying degree within die
preceding two years is invalid because this conflicts with the ADEA, so the Agency’s
implementing regulations are also invalid. As remedy, Complainant asks in part that OPM!
2 According to the counselor’s report, Complainant has an active EEO complaint against the
FDIC’s Pathways program for his ’‘non-selection” under the above vacancy announcement.
2 Complainant also argues that OPM and the FDIC jointly violated the ADEA. We decline to
join FDIC with this case.

Exhibit E pg.2

0120181475
remove the two-year educational requirement from the Pathways hiring authority. Applying
Hipona, we find Complainant’s complaint fails to state a claim.
The FAD is AFFIRMED.
STATEMENT OF RIGHTS - ON APPEAL
RECONSIDERATION (M06I7)
The Commission may, in its discretion, reconsider the decision in this case if the Complainant
or the Agency submits a written request containing arguments or evidence which tend to establish
that:
1.

The appellate decision involved a clearly erroneous interpretation of material fact
or law; or

2.

The appellate decision will have a substantial impact on the policies, practices, or
operations of the Agency.

Requests to reconsider, with supporting statement or brief, must be filed with the Office of
Federal Operations (OFO) within thirty (30) calendar days of receipt of this decision. A party
shall have twenty (20) calendar days of receipt of another party’s timely request for
reconsideration in which to submit a brief or statement in opposition. See 29 C.F.R, § 1614.405;
Equal Employment Opportunity Management Directive for 29 C.F.R. Part 1614 (EEO MD110), at Chap. 9 tj VII.B (Aug. 5, 2015). All requests and arguments must be submitted to the
Director,
Office
of Federal
Operations,
Equal
Employment Opportunity
Commission. Complainant’s request may be submitted via regular mail to P.O. Box 77960,
Washington, DC 20013, or by certified mail to 131 M Street, NE, Washington, DC 20507. In
the absence of a legible postmark, the request to reconsider shall be deemed timely filed if it is
received by mail within five days of the expiration of the applicable filing period. See 29 C.F.R.
§ 1614.604. The agency’s request must be submitted in digital format via the EEOC’s Federal
Sector EEO Portal (FedSEP). See 29 C.F.R. § 1614.403(g). The request or opposition must
also include proof of service on the other party.
Failure to file within the time period will result in dismissal of your
as untimely, unless extenuating circumstances prevented the timely
supporting documentation must be submitted with your request
Commission will consider requests for reconsideration filed after
limited circumstances. See29 C.F.R. § 1614.604(c).

request for reconsideration
filing of the request. Any
for reconsideration. The
the deadline only in very

COMPLAINANT’S RIGHT TO FILE A ClYTL ACTION (S0610)
You have the right to file a civil action in an appropriate United States District Court within
ninety (90) calendar days from the date that you receive this decision. If you tile a civil action,
you must name as the defendant in the complaint the person who is the official Agency head or
department head, identifying that person by his or her full name and official title. Failure to do

Exhibit E pg.3

4

0120181475

so may result in the dismissal of your ease in court. ■‘Agency” or “department" means the
national organization, and not the local office, facility or department in which you work. If you
file a request to reconsider and also file a civil action, filing a civil action will terminate the
administrative processing of your complaint.
RIGHT TO REQUEST COUNSEL (Z0815)
If you want to file a civil action but cannot pay the fees, costs, or security to do so, you may
request permission from the court to proceed with the civil action without paying these fees or
costs. Similarly, if you cannot afford an attorney to represent you in the civil action, you may
request the court to appoint an attorney for you. You must submit the requests for waiver of
court costs or appointment of an attorney directly to the court, not the Commission. The court
has the sole discretion to grant or deny these types of requests. Such requests do not alter the
time limits for filing a civil action (please read the paragraph titled Complainant’s Right to File
a Civil Action for the specific time limits).
FOR THE COMMISSION:

Carlton M/Hadden, Director'
Office of Federal Operations

♦. ♦

AUG 2 2 2018
Date

Exhibit E pg. 4

5

0120181475

CERTIFICATE OF MAILING
For timeliness purposes, the Commission will presume that this decision was received within
live (S) calendar days after it was mailed. I certify that this decision was mailed to the
following recipients on the date below;
Brian J, Near'y
2673 Fisher Lane
Bellmore, NY 11710
Katherine Brewer, Senior Counsel
Office of the General Counsel
Office of Personnel Management
1900 E Street, NW, Room 7536
Washington, DC 2Q415-1300
Lashonn Woodland, EEO Director
Equal Employment Opportunity Office
Office pf Personnel Management
1900 E Street, N.W., Room 6460
Washington. DC, 20415

AUG 2 2 2018
Date

//|

Compliance and Control Division

Exhibit E pg.5

• Donny D. Dristy
Office of Strategy and Innovation
US Office of Personnel Management
951-249-9507
Fedstats.lnternet@opm.gov

[EXHIBIT F]

OPM Federal Pathways Programs New Appointments- by Age
As of July 2012 inception date, through July 31st, 2020
FISCAL YEAR

2012
2012
2012
2012
2013

2013
2013
2013
2014
2014
2014
2014
2015
2015
2015
2015
2016
2016
2016
2016
2017
2017
2017
2017
2018
2018
2018
2018
2019
2019
2019
2019
2020
2020
2020
2020

PROGRAM TYPE
INTERNSHIP

PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
INTERNSHIP
PMF
RECENT GRADUATES
Total:
percentage rate:

UNDER 40
2,611

OVER 40

OVER 50
133

TOTAL EMPLOYEES
2,744
32

238
17

11
5

1
1

249
22

2,866

149
857
13
204
1,074

34
263
1
35

3,015
17,374
410
1,308

299

19,092

922

274
7
150
431
312
2
203
517
246

17,015
495
3,212
20,722
17,315

16,517

397
1,104
18,018
16,091
463
2,621
19,175
16,335

376
3,868
20,579
15,032
406
3,824
19,262
12,228

276
3,269
15,773
10,061

259
2,687
13,007
8,629
252

2,963
11,844
4,726
177
2,273
7,176

32
591
1,545

979
21
764
1,764
845
30

9
231
486
168

760
1,635
642
22

6

650

191

1,314
417
15
451
883
357

365
117
1
123
241
91
2
114
207
70
1

6
392
755
192
8
324
524

79
150

|$fo3
90.2%

T9%T

6.1%

26,775

Total Recent Graduates hired:
Total Recent Graduates hired OVER age 50:

1,127

percentage rate:

Exhibit F pg.1

[

T2%l

397
4,632
22,344
15,960
436
4,584
20,980
13,131
298
3,919
17,348
11,218
274
3,138
14,630
10,807
258
3,357
14,422
6,214
185

2,603
9,002
[1X1*555
98.2%

Data for...
• FY2005 and later data pulled from OPM’s Enterprise Human Resources Integration Statistical Data Mart (EHRI-SDM).
• FY2004 and earlier pulled from OPM’s Central Personnel Data File (CPDF).
Coverage is limited to Federal civilian employees with the following inclusions or exclusions:
[ExecutivelBranchTexclu^ons^HBBB^BB
• U.S. Postal Ser • Office of the Vice President
• Postal Rate Co • Foreign Service Personnel at the State Department
• Central Intellige • Tennessee Valley Authority
• National Securi • Board of Governors of the Federal Reserve
• Defense Intellig • Public Health Service's Commissioned Officer Corps
• National Geosp • Non-appropriated fund employees
• Office of the Dii • Foreign Nationals Overseas
• White House O • Executive Residence
• President's Intelligence Advisory Board
[t?egislativliBranch!inciusions^^^^^^^^M
• Government Pr • Ronald Reagan Centennial Commission
• Dwight D. Eisei • Medicare Payment Advisory Commission
• Financial Crisis • U.S. - China Economic and Security Review Commission
• U.S. Commission on International Religious Freedom
rJudicial.Branch.inclusions^^^^^B
• U.S. Tax Court (see note below).
The above represents current coverage and is subject to change over time. Recent significant changes include:
• The Bureau of Consumer Financial Protection, a component of the Federal Reserve, began reporting in March 2011.
• The Federal Bureau of Investigation did not report data on personnel actions until FY2007.
• The State Department stopped providing data on Foreign Service Personnel in March 2006.
• Prior to Sep2013 the U.S. Tax Court was reflected as a legislative agency (agency code LT).
More information about our data sources can be found at http://www.opm.gov/feddata/guidance.asp
Unless otherwise specified data is for employees in active pay status.
Data is for all Pathways Program new appointments as of July 2012 through April 2019.
Pathway's new appointment definitions are listed below:

Intern
Intern NTE
Recent Grad

NOA

Legal Authority

Legal Authority
Code

170,171, 570, 571, 760

213.3402(a)

YEA

170, 570
170, 570

213.3402(b)
213.3402(c)

YEB
YEC

Prepared by:
OPM/Policy & Planning Analysis/Data Analysis
KP

Exhibit F pg.2

[EXHIBIT G]
Federal Register/Vol. 72, No. 129/Friday, July 6, 2007/Rules and Regulations
PART 1625—AGE DISCRIMINATION IN
EMPLOYMENT ACT
■ 1. Revise the authority citation for part
1625 to read as follows:
Authority: 29 U.S.C. 621-634; 5 U.S.C.
301; sec. 2, Reorg. Plan No. 1 of 1978, 43 FR
19807; E.O. 12067, 43 FR 28967.

Subpart A—Interpretations
■ 2, Revise § 1625.2 to read as follows:
§ 1625.2
Act.

Discrimination prohibited by the

It is unlawful for an employer to
discriminate against an individual in
any aspect of employment because that
individual is 40 years old or older,
unless one of the statutory exceptions
applies. Favoring an older individual
over a younger individual because of
age is not unlawful discrimination
under the ADEA, even if the younger
individual is at least 40 years old.
However, the ADEA does not require
employers to prefer older individuals
and does not affect applicable state,
municipal, or local laws that prohibit
such preferences.
■ 3. Revise § 1625.4 to read as follows:
igT625a jHeltrwanfea'ndtice'so'a
faidtfgrt?ggm5Rtg>

Sam

^wanted notices 05
Advertisements may' Hot con'famTerm^l
fiffdTpThrases. that limit 'oTdeter thi
Employment of older indiyiduaJU
(Noticeg. or ad vartfeementelliat
fterruslsugh as age'25 to '35s.YQim£}____

But because the request that an
applicant state his age may tend to deter
older applicants or otherwise indicate
discrimination against older
individuals, employment application
forms that request such information will
be closely scrutinized to assure that the
request is for a permissible purpose and
not for purposes proscribed by the Act.
That the purpose is not one proscribed
by the statute should be made known to
the applicant by a reference on the
application form to the statutory
prohibition in language to the following
effect:
[FR Doc. E7-13051 Filed 7-5-07; 8:45 am]
BILLING CODE 6570-01-P

36875

authority over information contained in
or revealed by the records has been
obtained,
Access to unclassified OSD
Component files by historical
researchers shall be permitted
consistent with the restrictions of the
exemptions of the Freedom of
Information Act. The procedures for
access to classified information shall be
used if the requested unclassified
information is contained in OSD files
whose overall markings are classified.
On February 28, 2007 (72 FR 8952),
the Department of Defense published a
proposed rule, “Historical Research in
the Files of the Office of the Secretary
of Defense (OSD)” inviting public
comments. No comments were received.
Executive Order 13132, “Federalism”

DEPARTMENT OF DEFENSE
Office of the Secretary
32 CFR Part 197
[DoD-2006-OS-0023]
RIN 0790-AI12

Historical Research in the Files of the
Office of the Secretary of Defense
(OSD)
AGENCY: Department of Defense.
ACTION: Final rule.

SUMMARY: This final rule identifies and
updates the policies and procedures for
the programs that permit U.S, citizens to
perform historical research in records
(froy, girl, qi others of a sirniTar nature!
created by or in the custody of the
Office of the Secretary of Defense (OSD).
^j^lai£illS^Sunless one °f the
statutory exceptions applies. Employers Historical Research in the Files of OSD
may post help wanted notices or
updates the policies and procedures for
advertisements expressing a preference
the programs that permit U.S, citizens to
for older individuals with terms such as perform historical research in records
over age 60, retirees, or supplement your created by or in the custody of the OSD.
pension.
DATES: Effective Date: This rule is
(b) Help wanted notices or
effective August 6, 2007.
advertisements that ask applicants to
FOR FURTHER INFORMATION CONTACT: Mr.
disclose or state their age do not, in
Robert
Storer, 703-696-2197.
themselves, violate the Act. But because
SUPPLEMENTARY INFORMATION: Anyone
asking applicants to state their age may
accessing classified material must
tend to deter older individuals from
possess the requisite security clearance,
applying, or otherwise indicate
Information requested by historical
discrimination against older
researchers shall be accessed at a DoD
individuals, employment notices or
activity or facility under the control of
advertisements that include such
the National Archives and Records
requests will be closely scrutinized to
Administration (NARA).
assure that the requests were made for
Access to records by historical
a lawful purpose.
researchers shall be limited to the
■ 4. Revise the first paragraph of
specific records within the scope of the
§ 1625.5 to read as follows:
proposed historical research over which
§ 1625.5 Employment applications.
the Department of Defense has
classification authority. Access shall
A request on the part of an employer
also be limited to any other records for
for information such as Date of Birth or
age on an employment application form which the written consent of other
is not, in itself, a violation of the Act,
Agencies that have classification

It has been certified that 32 CFR part
197 does not have federalism
implications, as set forth in Executive
Order 13132. This rule does not have
substantial direct effects on:
(1) The States;
(2) The relationship between the
National Government and the States; or
(3) The distribution of power and
responsibilities among the various
levels of Government.
Executive Order 12630, “Government
Actions and Interference With
Constitutionally Protected Property
Rights”
It has been certified that 32 CFR part
197 does not:
(1) Place a restriction on a use of
private property;
(2) Involve a permitting process or
any other decision-making process that
will interfere with, or otherwise
prohibit, the use of private property; or
(3) Regulate private property use for
the protection of public health or safety.
Executive Order 12866, “Regulatory
Planning and Review”
It has been certified that 32 CFR part
197 does not:
(1) Have an annual effect on the
economy of $100 million or more or
adversely affect in a material way the
economy; a section of the economy;
productivity; competition; jobs; the
environment; public health or safety; or
State, local, or tribunal governments or
communities;
(2) Create a serious inconsistency or
otherwise interfere with an action taken
or planned by another Agency;
(3) Materially alter the budgetary
impact of entitlements, grants, user fees,
or loan programs, or the rights and
obligations of recipients thereof; or
(4) Raise novel legal or policy issues
arising out of legal mandates, the

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 1 of 10

[EXHIBIT H]

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

STEVE RABIN, et al.,
Plaintiffs,

8
v.

9
10

PRICEWATERHOUSECOOPERS LLP,
Defendant.

11
.2

£1

O a
.2 O

Case No. 16-cv-02276-JST
ORDER DENYING DEFENDANT’S
MOTION FOR JUDGMENT ON THE
PLEADINGS
Re: ECF No. 55

12
Before the Court is Defendant PricewaterhouseCooper LLP’s (“PwC” or “Defendant”)

13
14

Motion for Judgment on the Pleadings. ECF No. 55. Defendant seeks judgment as a matter of

5Vi tsG

15

law on Plaintiff Steve Rabin and John Chapman’s (“Plaintiffs”) second cause of action—a

rV
5
C/3 ^

16

disparate impact claim under the Age Discrimination in Employment Act (“ADEA”). For the

T3 £
<D
.tS J3

17

reasons set forth below, the Court will deny the motion.

Z

18

I.

£3 u-i
Vi

O

£ Vi

d t:
Z O

19

BACKGROUND
On April 27, 2017, Plaintiffs filed this putative class action, alleging that PwC “engages in

20

systemic and pervasive discrimination against older job applicants.” ECF No. 62 at 7. Plaintiffs

21

claim that PwC’s “maintains hiring policies and practices for giving preference to younger

22

employees that result in the disproportionate employment of younger applicants.” ECF No. 1 at 3.

23

According to the complaint, these practices also deter older applicants from applying for positions

24

at PwC in the first place. Id at 4. On July 22, 2016, PwC answered the complaint. ECF No. 32.

25

Plaintiffs filed an amended complaint on September 8, 2016, ECF No. 42, and Defendant

26

answered again on September 30, 2017, ECF No. 47.

27
28

Then, on January 9, 2017, Defendant moved for judgment on the pleadings, asking the
court to enter judgment in favor of PwC as to Plaintiffs’ disparate impact claim under the ADEA.
Exhibit H pg.1

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 2 of 10

1

ECF No. 60. Defendant argues that the ADEA does not permit job applicants to bring disparate

2

impact claims.

3

II.

4

LEGAL STANDARD
“After the pleadings are closed—but early enough not to delay trial—a party may move for

5

judgment on the pleadings.” Fed. R. Civ. P. 12(c). The analysis for Rule 12(c) motions for

6

judgment on the pleadings is “substantially identical to [the] analysis under Rule 12(b)(6). . . .”

7

Chavez v. United States. 683 F.3d 1102, 1108 (9th Cir. 2012) (quotations omitted). tro"evaluate~a

8

fRulFObft’gl motion to dismiss, the court acceptslhrmateflartacts allegecTinTfie complainD
as trneJ Navarro v. Block. 250

9
10

F.3d 729, 732 (9th Cir. 2001). A plaintiff must allege facts that are enough to raise her right to

11

relief “above the speculative level.” Bell Atl. Corn, v. Twombly, 550 U.S. 544 (2007). A

n

12

“judgment on the pleadings is properly granted when, taking all the allegations in the non-moving

o£

13

party’s pleadings as true, the moving party is entitled to judgment as a matter of law.” Faiardo v.

.a o

14

Ctv. of Los Angeles. 179 F.3d 698, 699 (9th Cir. 1999).

15

III.

Bo 1£
-4—>

cd

S *3
5
6
&
C/3
-a
5
c

ts
S1
£
£
t:
o
Z

ANALYSIS

16

“The ADEA is remedial and humanitarian legislation and should be liberally interpreted to

17

effectuate the congressional purpose of ending age discrimination in employment.” Naton v. Bank

18

of California. 649 F.2d 691, 696 (9th Cir. 1981) ('quoting Dartt v. Shell Oil Co.. 539 F.2d 1256

19

(10th Cir. 1976). To that end, the Supreme Court held in Smith v. City of Jackson that the ADEA

20

permits disparate impact claims in addition to disparate treatment claims. 544 U.S. 228, 240

21

(2005) (“[The ADEA] authorize^] recovery on a disparate-impact theoryf.]”). Neither the

22

Supreme Court nor the Ninth Circuit has explicitly held, however, that this right extends to both

23

employees and job applicants under the ADEA. Based on the language of the ADEA, existing

24

precedent, agency interpretations of the ADEA, and the Act’s legislative history, the Court today

25

concludes that job applicants like Plaintiffs may bring disparate impact claims.

26

A. Text of the ADEA

27

Section 4 of the ADEA makes it unlawful for an employer:

28
2 Exhibit H pg.2

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 3 of 10

1
2
3
4
5
6
7
8
9
10
11
S3
.

■

12

29 U.S.C. § 623(a)(2). In Smith, the Supreme Court held unequivocally that section 4(a)(2)
allows for disparate impact claims. 544 U.S. at 240. The only question here is whether that right
extends to job applicants in addition to employees.
The plain language of the statute supports the more inclusive interpretation. Critically, the
ADEA uses the phase “any individual,” rather than “employee” to identify those people section
4(a)(2) protects. 29 U.S.C. § 623(a)(2). By contrast, elsewhere in the same provision, Congress
chose the word “employees” to refer to the people an employer may not “limit, segregate, or
classify.” Id The Court assumes that this variation in language was a deliberate choice, and one
that reflects Congress’s intent to include all “individuals” within section 4(a)(2)’s ambit. S.E.C. v.
McCarthy. 322 F.3d 650, 656 (9th Cir. 2003) (“It is a well-established canon of statutory

«

r9 cS
O a

13

£<3
is
S s

15

$s

16

C/5

to limit, segregate, or classify his employees in any way which would deprive or
tend to deprive any individual of employment opportunities or otherwise
adversely affect his status as an employee, because of such individual’s age ....

14

O

c/5

*o c

1)

.ts JS

a t:

17
18
19
20
21
22
23
24
25
26
27
28

interpretation that the use of different words or terms within a statute demonstrates that Congress
intended to convey a different meaning for those words.”). This reading of section 4(a)(2) is
bolstered further by the fact that, elsewhere in the ADEA, Congress used the phrase “any
employee” to refer to the affected parties with a right to sue. See, e.g.. 29 U.S.C. § 623(a)(3)
(making it unlawful “to reduce the wage rate of any employee in order to comply with this
chapter”) (emphasis added). “If Congress intended to protect a narrower group, [such as
employees only], it would have said so.” Villarreal v. R.J. Reynolds Tobacco Co.. 839 F.3d 958,
982 (11th Cir. 2016) (Martin, J., dissenting).
The Court acknowledges that the Eleventh Circuit came to the opposite conclusion in
Villarreal. Indeed, Defendant leans heavily on the majority opinion in that case for its argument
that the plain language of section 4(a)(2) clearly limits its application to employees. The Court in
Villarreal focused on the phrase “or otherwise adversely affect his status as an employee,” and
argued that its use made “‘depriving or tending to deprive any individual of employment
opportunities’ a subset of ‘adversely affecting [the individual’s status as an employee.’”
Villarreal. 839 F.3d at 963. Under this reading, section 4(a)(2) gives only employees, and not
applicants, the right to bring disparate impact claims. Defendant further explains how, in other
3

Exhibit H pg.3

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 4 of 10

1

parts of the U.S. Code, similar “otherwise” phrases have been interpreted to “operate^ as a

2

catchall: the specific items that precede it are meant to be subsumed by what comes after the ‘or

3

otherwise.’” ECF No. 64 at 8. But the power of this argument and Defendants’ statutory

4

examples is undermined by the fact that the Supreme Court has interpreted identical statutory

5

language in Title VII, and did not suggest that only employees were entitled to bring suit or that

6

the “otherwise” phrase modifies “any individual.” See Part III.B (discussing Griggs v. Duke

7

Power Co.).
Moreover, as Judge Martin noted in her dissent, “the Supreme Court has even told us that

8
9

when the word employee lacks any temporal qualifier it can include people other than current

10

employees,” such as “prospective employees.” Id at 984 (Martin, J., dissenting) (citing Robinson

11

v. Shell Oil Co., 519 U.S. 337, 342 (1997)) (internal quotation marks omitted).1 “If‘employees

«

12

can mean prospective employees, surely ‘any individual’ can too.” Id. The text of the statute

o &
O
£

13

therefore contradicts the Villarreal majority’s conclusion that “4(a)(2) protects an individual only

14

if he has a ‘status as an employee.’” Id at 963.

Ba

CQ

•g U
c/5

O

So
B tS
|Q
•o
£
w a>

■1 -§

5I

15

Defendant and the Villarreal majority also focus on section 4(c)(2) of the ADEA, which

16

uses the words “status as an employee or as an applicant for employment” rather than “status as an

17

employee” like section 4(a)(2). According to Defendant, Congress’s decision to omit the

18

“applicant for employment” language in section 4(a)(2) must mean something. This is

19

Defendant’s strongest textual argument. Nonetheless, Section 4(c)(2) is distinguishable, because

20

it governs labor organizations, not employers. The Villarreal dissent explained the ramifications

21

of this distinction:

22

[Section 4(c)(2)] governs a labor organization’s ability to “refuse to refer for
employment.” This part of the statute targets the unique way in which labor
organizations can discriminate when they “refer” “applicants” to employers, such
as through union hiring halls. None of the other parts of the ADEA that govern
employers say anything about “referring” anyone for employment. Employers,
after all, don’t “refer applicants.” But labor organizations, by virtue of their
unique referral role, are sometimes the sole conduit by which an employer can get

23
24
25
26
27
28

i

Defendant misunderstands Plaintiffs and the Court’s use of Robinson. ECF No. 64 at 13. That
decision supports a broader interpretation of the word “employee”; the Court does not rely on
Robinson to interpret the word “individual.”
4
Exhibit H pg.4

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 5 of 10

1
2
3
4
5
6
7
8
9
10
11
cd

=1
<3 is
«->

12
13

c3

.a u

is <*h

14

5 o

15

co o
CO 'C

6 to

■§ 5

16

a

17
Z

18
19
20
21
22
23
24
25

potential job applicants. And § 4(c)(2) prohibits labor organizations from
“refusing] to refer” a person for employment at all because of her age and
thereby denying her “status ... as an applicant for employment.” In other words,
the statute protects someone who sought work but was denied status as an
applicant—that is, being allowed to apply at all—due to labor organizations’
control of the hiring process.
839 F.3d at 985 (Martin, J., dissenting). The Court finds this analysis persuasive. And
Defendant’s statutory comparison, however convincing, cannot overcome the use of the phrase
“any individual,” binding Supreme Court precedent, see Part III.B, or the legislative history of the
Act, see Part III.C.
Finally, the most natural reading of section 4(a)(2) “plainly describes what [PwC
allegedly] did to [Plaintiffs]. Specifically, Mr. [Rabin] is an ‘individual’ who was 4deprive[d]’ ‘of
employment opportunities’ and denied any ‘status as an employee’ because of something an
employer did to ‘limit... his employees.’” Id at 982 (Martin, J., dissenting). Given that it is
PwC’s alleged discrimination that deprived Mr. Rabin of his status an employee, it would turn the
ADEA on its head to say that Mr. Rabin cannot bring a disparate impact claim because he was
never actually hired.
B. Supreme Court Precedent
Supreme Court precedent supports an interpretation of section 4(a)(2) that permits job­
seekers to bring disparate impact claims. Most importantly, in Griggs v. Duke Power Co., the
Supreme Court considered identical statutory language in Title VII. 401 U.S. 424 (1971).2 The
question before the Court was whether, under that identical statute, “an employer is prohibited by
the Civil Rights Act of 1964, Title VII, from requiring a high school education or passing of a
standardized general intelligence test as a condition of employment in or transfer to jobs.” Id. at
425-26 (emphasis added). The Court held that Title VII prohibited the employer’s actions if they
were shown to have a disparate impact on African Americans. Id.
Defendant argues that Griggs has no bearing on whether job applicants, versus employees,
may bring disparate impact claims, because in Griggs the plaintiffs were all “employed at the

26
27
28

2 Of course, the statutes differ in that protected status under Title VII is “race, color, religion, sex,
or national origin,” whereas under the ADEA it is “age.”
5
Exhibit H pg.5

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 6 of 10

1

Company’s Dan River Steam Station.” Id. at 426. But as described above, the Court phrased the

2

question presented broadly to include a challenge to “conditions] of employment.” Id

3

Moreover, the Griggs Court explained the decision below as finding that the defendant had

4

“openly discriminated on the basis of race in the hiring and assigning of employees at its Dan

5

River plant.” Id. at 426-27 (emphasis added). This suggests that the Court did not intend to limit

6

Title Vll’s protections in a way that excluded job applicants. That more liberal reading of Griggs

7

makes sense given the Court’s approval of disparate impact liability as a tool to combat “subtle

8

forms of discrimination that ‘freeze the status quo,’ create ‘artificial, arbitrary, and unnecessary

9

barriers to employment,’ or ‘operate as built-in-headwinds for minority groups.’” Villarreal, 839

10

F.3d at 987 (Martin, J., dissenting) (quoting Griggs, 401 U.S. at 430-32). Those same “subtle

11

forms of discrimination” are just as likely to persist in the interview room as they are within the

.2

12

walls of the workplace. It cannot be that, despite Griggs’s clear message, an employer remains

<3-<-> S3A

13

free to freeze the status quo “by not hiring minorities at all.” Id.

*c
ts

14

B1

o r i
w

O

C/3

l—

Notably, several subsequent Supreme Court decisions have characterized Griggs as

Sz

15

applying to job applicants. In Texas Dep’t of Hous. & Cmtv. Affairs v. Inclusive Communities

aI

16

Project, Inc., for example, the Court described how Griggs had placed important limits on Title

17

VII disparate impact liability, explaining that even “in a disparate-impact case, § 703(a)(2) does

18

not prohibit hiring criteria with a ‘manifest relationship’ to job performance.” 135 S. Ct. 2507,

19

2517 (2015). Likewise, in Connecticut v. Teal, the Court explained that although the requirements

20

in Griggs “applied equally to white and black employees and applicants, they barred employment

21

opportunities to a disproportionate number of blacks” and were therefore invalid. 457 U.S. 440,

22

446 (1982) (emphasis added); see also Dothard v. Rawlinson. 433 U.S. 321,329 (1977)

23

(explaining that Griggs “ma[de] clear that to establish a prima facie case of discrimination, a

24

plaintiff need only show that the facially neutral standards in question select applicants for hire in

25

a significantly discriminatory pattern”). That the Court described its own prior decision in these

26

terms casts doubt on Defendant’s cramped reading of Griggs.

C/D ^

T3 B
<L>

U

27
28

Defendant makes much of the fact that Congress later amended the section of Title VII at
issue in Griggs to read:
6

Exhibit H pg.6

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 7 of 10

1

3

to limit, segregate, or classify his employees or applicants for employment in any
way which would deprive or tend to deprive any individual of employment
opportunities or otherwise adversely affect his status as an employee, because of
such individual’s race, color, religion, sex, or national origin.

4

42 U.S.C. § 2000e-2(a)(2) (emphasis on new language). Defendant suggests that the decision to

5

add the phrase “or applicants for employment” means Congress believed that group was not

6

protected under the earlier version — i.e., the version interpreted in Griggs. EOF No. 55 at 10.

7

Because Congress did not add a similar phrase to the ADEA, the argument goes, job applicants

8

remain unprotected under section 4(a)(2).3 Defendant draws the wrong inference. As Plaintiffs

9

point out, the amendment to Title VII was intended to be “declaratory of present law,” S. Rep. No.

10

92-415 at 43 (1971), and “fully in accord with the decision of the Court” in Griggs. H.R. Rep. No.

11

92-238 at 21-22 (1971). In other words, the amendment signaled that Griggs had properly

cd

12

interpreted Title VII as protecting both employees and applicants. Therefore, the amendment

§ £
o £

13

supports, rather than detracts from, an interpretation of the ADEA as likewise covering both

14

employees and applicants.

2

■

>

»^

O ~
U
is
<*C/5 O

S ts

15

S-i

16

of the ADEA, made no distinction between applicants and employees. 544 U.S. 228 (2005).4 It is

17

true that the plaintiffs in Smith were employees, hi at 230 (describing plaintiffs as “police and

18

public safety officers employed by the city of Jackson”). But just because Smith granted relief to

19

employees, it does not follow that the Court would not have granted relief had the plaintiffs been

20

applicants instead. Moreover, the Smith Court relied heavily on the reasoning in Griggs, which, as

21

described above, did not limit its holding to employees. Id. at 232 (“[We] now hold that the

22

ADEA does authorize recovery in ‘disparate-impact’ cases comparable to Griggs.”).

C/5

C

GO 1—1
T3 £
<U

<L>

•a t=
£ ©
Z

Smith, which announced that disparate impact claims are cognizable under section 4(a)(2)

23
24
25
26
27
28

3 Defendant cites Gross v. FBL Fin. Servs., Inc.. 557 U.S. 167 (2009), in support of this point. But
there, the Court emphasized that “Congress neglected to add such a provision to the ADEA when
it amended Title VII..., even though it contemporaneously amended the ADEA in several
ways.” Id. at 175 (emphasis added). Defendant makes no claim here that Congress specifically
considered adding “or applicants for employment” to the ADEA at the time it amended Title VII
and decided against it.
4 When Smith was decided, the amendment to Title VII that added the “or applicants for
employment” language had been in place for over three decades.
7

Exhibit H pg.7

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 8 of 10

1

Smith did identify “[t]wo textual differences between the ADEA and Title VII [that] make

2

it clear that even though both statutes authorize recovery on a disparate-impact theory, the scope

3

of disparate-impact liability under ADEA is narrower than under Title VII.” Smith. 544 U.S. at

4

240. Neither, however, has the slightest connection to the applicant/employee distinction.5 That

5

the Court chose to comment on the differences between Title VII and the ADEA’s analogous

6

provisions but made no mention of the “or applicants for employment” language in Title VII is

7

noteworthy.

8
9

The Smith Court also carefully analyzed the textual differences between section 4(a)(2)
and section (4)(a)(l). The latter makes it unlawful to “to fail or refuse to hire or to discharge any

10

individual or otherwise discriminate against any individual with respect to his compensation,

11

terms, conditions, or privileges of employment, because of such individual’s age.” 29 U.S.C. §

12

623(a)(1). Although subsection one contains the “fail or refuse to hire” language, and subsection

B9 <2|

13

two does not, the Smith Court “said nothing about the distinction between hiring versus other

a U

14

claims that [Defendant’s] entire effort to distinguish Smith is staked on.” Villarreal. 839 F.3d at

3 ts
vi c

15

988 (Martin, J., dissenting).

*-> o

16

cS

O ys
+-• w
« PN

to 'o

<ZD ^

T3 B
<D

4)

P ©

2

Rather than invent a new and more restrictive interpretation of section 4(a)(2), this Court

17

will follow the guidance of Smith and Griggs.6 Those precedents support extending the right to

18

make a disparate impact claim under the ADEA to “any individual” who has been adversely

19

affected “because of such individual’s age,” regardless of whether she is an applicant or employee.

20

C. Agency Interpretation

21
22
23
24
25
26
27
28

5 First, ADEA defendants may use the “reasonable factors other than age” defense; and second,
Wards Cove’s pre-1991 interpretation of Title VII’s identical language remains applicable to the
ADEA. ECF No. 62 at 16-17.
6 Defendant claims that, by adopting this approach, the Court will be “breaking] with th[e]
significant weight of precedent,” pointing to Villarreal, but also to Ellis v. United Airlines. Inc., 73
F.3d 999, 1009 (10th Cir. 1996) and E.E.O.C. v. Francis W. Parker Sch.. 41 F.3d 1073, 1075 (7th
Cir. 1994). ECF No. 64 at 12. This reliance is misplaced. Both the Tenth and Seventh Circuits
held that disparate claims were not available at all under the ADEA. The Supreme Court overruled
that holding in Smith. The fact that Ellis and Francis W. Parker School involved claims by job
applicants does not change the fact that their central holdings are no longer good law and cannot
support Defendant’s argument here.
8
Exhibit H pg.8

Case 3:16-cv-02276-JST Document 74 Filed 02/17/17 Page 9 of 10

1

Deference to agency interpretation provides yet another reason to reject Defendant’s

2

narrow construction of section 4(a)(2). fr~BFclHElHe*Coufn5elieves tEFLanguagF^ltTe^fatufel

3

(read'irnigRforGriggs and'Smffli. maxes

4

fflYsmrate imnact clairnsl Nonetheless, the Court acknowledges that others might would interpret

5

section 4(a)(2) differently, including a majority of judges on the Villarreal en banc panel. Where a

6

statute is ambiguous, courts grant increased deference to the responsible agency’s interpretation.

7

Chevron. U.S.A.. Inc, v. Nat. Res. Def. Council. Inc.. 467 U.S. 837, 843 (1984).

8

Here, the Equal Employment Opportunity Commission (“EEOC”), the agency with

9

authority to issue rules and regulations related to the ADEA, 29 U.S.C. § 628, has long interpreted

10

the ADEA as permitting disparate impact claims by job-seekers. The EEOC’s current regulation

11

explains that “[a]ny employment practice that adversely affects individuals within the protected

. » •««cs

12

age group on the basis of older age is discriminatory unless the practice is justified by a

n
U £
us

13

“reasonable factor other than age.” 29 C.F.R. § 1625.7(c). The regulation mirrors section

14

4(a)(2)’s broad “any individual” language. Additionally, the regulation’s preamble section

S£

15

explains how it addresses “neutral practices that act as barriers to the employment of older

cn ^
T3 B
<U <D

16

workers”:

B|
-faj

(3

.2 U

is <+h
w

O

.ts
G ts

D <2
Z,

17
18
19
20
21
22
23
24
25
26

Data show that older individuals who become unemployed have more difficulty
finding a new position and tend to stay unemployed longer than younger
individuals. To the extent that the difficulty in finding new work is attributable to
neutral practices that act as barriers to the employment of older workers, the
regulation should help to reduce the rate of their unemployment.
77 Fed. Reg. 19080, 19092 (2012) (footnote omitted). This endorsement of applicant disparate
impact claims is not new. Only months after the ADEA was signed into law, the Department of
Labor, then the agency in charge of its interpretation, declared that supposedly neutral “preemployment” tests must be “reasonably necessary for the specific work to be performed” and
“equally applied to all applicants.” 33 Fed. Reg. 9173 (1968). Defendant offers no persuasive
reason to discard this decades-old interpretation of the ADEA by its implementing agency.
D. Legislative History

27
28
9

Exhibit H pg.9

